<html>
<title> - PROVIDING AVIATION WEATHER SERVICES TO THE FEDERAL AVIATION ADMINISTRATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                       PROVIDING AVIATION WEATHER
                            SERVICES TO THE
                    FEDERAL AVIATION ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 16, 2009

                               ----------                              

                           Serial No. 111-43

                               ----------                              

     Printed for the use of the Committee on Science and Technology





                       PROVIDING AVIATION WEATHER
                            SERVICES TO THE
                    FEDERAL AVIATION ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2009

                               __________

                           Serial No. 111-43

                               __________

     Printed for the use of the Committee on Science and Technology


       Available via the World Wide Web: http://science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50747 PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                HON. BRAD MILLER, North Carolina, Chair
STEVEN R. ROTHMAN, New Jersey        PAUL C. BROUN, Georgia
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
CHARLES A. WILSON, Ohio              VACANCY
KATHY DAHLKEMPER, Pennsylvania         
ALAN GRAYSON, Florida                    
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
            JAMES PAUL Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                   MOLLY O'ROURKE Research Assistant










                            C O N T E N T S

                             July 16, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Paul C. Broun, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......     8
    Written Statement............................................    10

                               Witnesses:

Mr. David A. Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    11
    Written Statement............................................    12
    Biography....................................................    28

Dr. John L. ``Jack'' Hayes, Assistant Administrator for Weather 
  Services; Director, National Weather Service, National Oceanic 
  and Atmospheric Administration, U.S. Department of Commerce
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    34

Mr. Richard Day, Senior Vice President for Operations, Air 
  Traffic Organization, Federal Aviation Administration
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    39

Discussion
  Involvement of Air Traffic Controllers in Reform...............    40
  The Effects of Reducing the Number of Meteorologists...........    41
  Safety and Potential Degradation of Service....................    41

             Appendix 1: Answers to Post-Hearing Questions

Dr. John L. ``Jack'' Hayes, Assistant Administrator for Weather 
  Services; Director, National Weather Service, National Oceanic 
  and Atmospheric Administration, U.S. Department of Commerce....    54

Mr. Richard Day, Senior Vice President for Operations, Air 
  Traffic Organization, Federal Aviation Administration..........    56

             Appendix 2: Additional Material for the Record

#1: Interagency Agreement DTFAWA-08-X-80000 between the Federal 
  Aviation Administration and the National Oceanic and 
  Atmospheric Administration National Weather Service for the 
  Provision of Meteorological Support to the Air Route Traffic 
  Control Centers (December 19, 2007)............................    58

#2: FAA Order 7210.38A, Center Weather Service Units (April 6, 
  1984)..........................................................    70

#3: National Weather Service Instruction 10-803, Support to Air 
  Traffic Control Facilities (September 3, 2008).................   104

#4: National Weather Service Instruction 10-814, Center Weather 
  Service Unit Site Review Program (November 10, 2008)...........   138

#5: Federal Aviation Administration Center Weather Service Unit 
  Requirements Document (December 2007)..........................   154

#6:Federal Aviation Administration Center Weather Service Unit 
  Quality Assurance Surveillance Plan (December 2007)............   180

#7: Letter from Nancy Kalinowski (Vice President, System 
  Operations Services, Air Traffic Organization, FAA) to Dr. John 
  Hayes (Assistant Administrator of Weather Services, NOAA) 
  (September 24, 2008)...........................................   202

#8: Letter from Dr. Hayes to Eugene Juba (Senior Vice President 
  for Financial Services, FAA) (June 3, 2009)....................   203

#9: Center Weather Service Unit (CWSU) Technical/Price Response 
  for New CWSU Services (June 3, 2009)...........................   204

#10: CWSU cost proposal (June 3, 2009)...........................   239

#11: NOAA/NEWS Center Weather Service Unit (CWSU) Quality 
  Assurance Surveillance Plan (June 3, 2009).....................   264

#12: AVIATION WEATHER: FAA is Re-evaluating Services at Key 
  Centers; Both FAA and the National Weather Service Need to 
  Better Ensure Product Quality, Government Accountability Office 
  (January 2008).................................................   290

#13: Center Weather Service Units (CWSUs) Restructure Efforts, 
  FAA presentation slides (July 7, 2009).........................   321

#14: Higgins, Will. ``Some Worried About Plan to Cut Airport 
  Meteorologists,'' Printout from FederalTimes.com (February 20, 
  2009)..........................................................   337

#15: KTVU-TV, ``FAA Plan Panned by Bay Area Air Traffic 
  Controllers,'' Printout from Foxreno.com (February 20, 2009)...   338

#16: Letter from Mark Rosenker, Chairman (Acting), National 
  Transportation Safety Board, to Chairman Miller (July 16, 2009)   339

#17: Site Reviews for the CWSUs at Indianapolis, Los Angeles, 
  Atlanta, Oakland, New York (Ronkonkoma), Salt Lake City, 
  Seattle, and Memphis...........................................   341

 
      PROVIDING AVIATION WEATHER SERVICES TO THE FEDERAL AVIATION 
                             ADMINISTRATION

                              ----------                              


                        THURSDAY, JULY 16, 2009

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 11:02 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Providing Aviation Weather

                            Services to the

                    Federal Aviation Administration

                        thursday, july 16, 2009
                          11:00 a.m.-1:00 p.m.
                   2318 rayburn house office building

Witnesses

        <bullet>  Mr. David Powner, Director, Information Technology 
        Management Issues, Government Accountability Office

        <bullet>  Dr. John L. (Jack) Hayes, Assistant Administrator for 
        National Weather Service, National Oceanic and Atmospheric 
        Administration

        <bullet>  Mr. Richard Day, Senior Vice President for 
        Operations, Air Traffic Organization, Federal Aviation 
        Administration

Introduction: Aviation Weather Service Consolidation

    The Subcommittee on Investigations and Oversight meets on July 16, 
2009 to examine the Federal Aviation Administration (FAA)'s efforts to 
reorganize the aviation weather services provided by the National 
Weather Service (NWS). The Federal Aviation Administration has been 
pushing the National Weather Service to reorganize its aviation weather 
services by consolidating from the twenty-one regional centers, called 
Central Service Weather Units (CWSUs), down to one national center. The 
ostensible reasons for this request were a desire to reduce the costs 
to FAA, which reimbursed NWS for their aviation services, and to 
improve and make more consistent the weather products provided by NWS 
forecasters. However, no proposal from NWS to consolidate services has 
shown significant savings and the lack of metrics on the performance of 
the CWSUs or the quality of services from CWSUs as perceived by FAA 
makes it impossible to demonstrate reliably whether the proposed 
alternative organization would provide better forecast services or 
enhance air traffic management. Finally, any reorganization carries 
real risks to air traffic flow and public safety. In light of these 
risks, the lack of clear baseline metrics of the current systems' 
performance and assurance that the proposed reorganization will offer 
benefits in terms of safety, traffic management or costs, the decisions 
to reorganize the current system and to consider only one option for 
that reorganization are not well justified or supported.

The Current System for Providing Aviation Weather Services

    The FAA and NWS have operated an aviation weather system in which 
NWS forecasters are co-located with air traffic controllers at the 
twenty-one Air Route Traffic Control Centers (ARTCC) around the 
country. Weather conditions have a significant impact on air transport. 
Many flight delays and disruptions to air traffic flow are attributable 
to unfavorable weather conditions and weather has been a factor in a 
number of accidents. The current system evolved out of recommendations 
from the National Transportation Safety Board (NTSB) that such regional 
distribution of forecasters would enable them to work directly with air 
traffic controllers to deal with severe or rapidly changing weather 
conditions and emergencies. This distributed approach to services was 
endorsed in a 1995 National Academy of Science report as well.
    The ARTCCs handle planes as they traverse the country. Planes are 
managed by airport traffic control towers for take-offs and landings 
and then are passed to the Terminal Radar Approach Towers for the 
Departure and Approach phases of a flight. Aircraft en route between 
airports are managed by the ARTCCs. Each ARTCC has an NWS Center 
Weather Service Unit (CWSU) housed in the same building with four 
forecasters assigned to each of the 21 ARTCCs. The forecasters 
typically provide services 16 hours a day, seven days a week--which is 
the peak time for commercial and general aviation.
    Aviation weather forecasts out of the CWSUs are not the sole source 
of weather information for the national air space. Weather Forecasting 
Offices (WFO) around the country provide continuous weather updates 
twenty-four hours a day and support local airports. However, aviation 
forecasting is a specialized application because of the specific needs 
of aviation. Winds and weather at different altitudes can make an 
enormous difference in aviation, but may be purely academic from the 
perspective of forecasting whether the local community will get showers 
or just clouds. Weather patterns vary enormously from region-to-region 
and from season-to-season. Aviation weather forecasters develop very 
specific local knowledge to help support the work of the air traffic 
controllers and the aviation community. The large airlines typically 
have their own weather service that they get under contract with 
private providers. These private providers use NWS data, but run the 
data through their own models designed to meet the specific needs of 
the commercial carrier.
    The Subcommittee has reviewed more than a dozen documented cases of 
air traffic controllers seeking emergency help from weather service 
forecasters to get a plane safely back on the ground. Frequently, those 
stories do not involve severe weather, but simple common occurrences 
such as a private aircraft losing instrumentation and finding itself 
stranded above endless cloud cover. Forecasters who can find the break 
in the clouds, work with the air traffic controller to get the heading 
right and work to bring the plane to the ground before it runs out of 
fuel make the difference between a safe return and potential tragedy.
    The annual costs for running this distributed system are in the 
range of $12 million. This covers both the technology acquired for the 
CWSUs as well as the 84 weather forecasting positions assigned across 
the network.

FAA Pushes to Change this System and the NWS Responds

    In 2005, FAA asked NWS to propose a consolidation of weather 
services down to one center with the goal of saving $2 million a year 
in aviation weather forecasting costs. NWS provided a proposal that 
would move the aviation weather forecasters back to local Weather 
Forecast Offices and would meet the $2 million savings goal. FAA 
rejected that proposal as well as a subsequent proposal that would have 
brought some consolidation, but not down to one center. As of July 
2009, NWS has now submitted their third proposal to the FAA. FAA 
intends to respond to that proposal by early August.
    The new NWS proposal would consolidate the CWSUs down to two 
centers (this is similar to their last, rejected proposal)--one in 
Kansas City to handle the Southern Tier of the U.S. and one in Silver 
Spring, Maryland to handle the Northern Tier. Staffing would be reduced 
from 84 forecasters to just 50 forecasters and managers split between 
the two centers as well as the one remaining ARTCC in Anchorage, 
Alaska. Coverage would be 24 hours a day, seven days a week.
    FAA argues that consolidating to one center will provide a ``single 
authoritative source'' for aviation weather forecasts and eliminate 
variation in the quality of service and products that have been found 
across the current, distributed system. In the mid-2000s, FAA argued 
that some CWSUs were not as good as others and that the variation in 
products from one center to the next led to confusion. NWS took these 
criticisms to heart and has been working to improve and standardize the 
services provided by CWSUs across the country. However, according to 
the National Air Traffic Controllers Organization, air traffic 
controllers at the ARTCCs--the men and women who rely on the CWSUs--are 
very strong advocates for keeping the forecasters on site and available 
to them to deal with emergencies. Their view is that consolidation 
would negatively impact their ability to do their jobs of keeping the 
national airspace safe.
    FAA also argues that such a consolidation should produce savings. 
However, the NWS proposal suggests that it will take a decade or more 
to realize any savings. The annual costs reimbursed to the NWS by FAA 
run on the order of $12 million. Under the new proposal, the annual 
costs of a consolidated system will be in the $11 million range. 
Transition costs for setting up two new centers, acquiring new 
technologies, running a demonstration test, and relocating staff will 
run $12 million. It would take a decade to earn back the costs of the 
transition.
    The NWS proposes to set up a center to run a side-by-side test of 
the performance of a consolidated center for comparison with the 
performance of the 21 regional centers. They would ask the National 
Academy of Sciences to monitor and evaluate the outcome of the test. 
However, there are problems with the proposed test and challenges in 
designing any reliable test, especially within the time period 
currently allotted. The Government Accounting Office (GAO) highlights 
these challenges in their testimony.

Degraded Service and Safety Questions

    One lost asset that would come from consolidation is the 
specialized local knowledge that currently informs aviation weather 
forecaster's work. The experts who currently work in the 21 regions 
have developed very precise knowledge of how weather patterns tend to 
emerge in each area. FAA hopes (as does NWS) that these experienced 
forecasters will be willing to relocate to the new centers. However, 
NWS admits that because of the turmoil and uncertainty surrounding the 
future of the existing 21 centers, the centers have been having trouble 
retaining staff in the last few years. Between projected retirements of 
more than 20 percent of the workforce and the uncertain fate of the 
CWSUs that has led many forecasters to seek other opportunities, the 
amount of local knowledge in the centers has been declining. These 
factors are making it more unlikely that the Kansas City and Silver 
Spring centers will be able to attract experienced aviation weather 
forecasters with a diverse mix of specialized, local information. One 
might argue that the national airspace has been made less safe simply 
because of the protracted efforts by FAA to force a consolidation of 
the CWSUs on the NWS.
    GAO finds that neither FAA nor the NWS have established meaningful 
metrics for performance for the current 21 CWSUs. Further, GAO finds 
that FAA requirements for the weather service are in flux and not fully 
articulated. This makes it difficult, if not impossible, to run any 
meaningful test. If performance cannot be measured, one cannot 
accurately judge whether a new organizational approach is better or 
worse. Further, to staff up the center, NWS is proposing to take some 
of the most senior people out of the 21 CWSUs. This would leave CWSUs 
weaker and concentrate expertise in the consolidated center, leaving 
doubts about the fairness of the test results, especially if many of 
these senior staff are the same experienced people that the NWS 
projects to retire if they down-size from 84 forecasters to 50 staff.
    Finally, there is a valid question about whether 50 staff would be 
sufficient to provide safe services. Each of the two centers will have 
five senior forecasters and 13 forecasters. Each center will operate 24 
hours a day seven days a week for a total of 21 shifts. Projecting a 
morning and evening shift of six forecasters each and one forecaster on 
the midnight shift, the two centers together would have 12 forecasters 
for the entire lower-48 states on the morning shift as the national 
airspace swings into full flight. That compares to at least 20 
forecasters on duty on any given morning shift right now. It is hard to 
see how the Nation's aviation system will be safer or how air traffic 
will be improved by cutting the people in weather forecasting by 40 
percent. On a day where you have brush fires over L.A., fog in San 
Francisco, ash plumes over the Northwest, and thunder storms and 
tornadoes developing from the east face of the Rockies to the Great 
Lakes and the Gulf, that reduction in staffing could become a matter of 
life and death.
    To his credit, the head of the National Weather Service is adamant 
that no change to the organization of the CWSUs will occur unless it 
can be clearly demonstrated that safety is not degraded. Given the lack 
of meaningful performance metrics, and the obvious decline in staffing 
that comes with the consolidation proposal, it appears on its face that 
this approach to aviation weather services will be impossible to 
convincingly demonstrate as being as safe or responsive to the needs of 
the Air Traffic Controllers and the aviation community. In light of the 
inevitable risks of moving from a proven system to an unproven system, 
the continued pressure from FAA for consolidation of NWS services is 
difficult to fathom.
    Chairman Miller. The hearing will now come to order. Good 
morning. Welcome to today's hearing, Providing Aviation Weather 
Services to the Federal Aviation Administration. This 
subcommittee has frequently struggled with the peculiar 
nonchalance of some government agencies in the face of the 
obvious dysfunction of critical programs.
    Today we struggle with the equally-peculiar determination 
by the FAA to solve a problem that appears not to exist. To fix 
what ain't broke or appears not to be broke. The current system 
of delivering aviation weather products for air traffic 
controllers appears to work pretty well.
    For 30 years the National Weather Service, the NWS, has 
provided support to the Federal Aviation Administration through 
aviation weather forecast units that are located at each of the 
21 regional air centers. There are 84 weather forecasters 
spread among those 21 centers, offering 16 hours of service 
each day at an annual cost of $12 million. The system appears 
to be lean and well-suited to air traffic controllers' needs.
    In 2006, Booz Allen Hamilton conducted a survey of air 
traffic controllers at seven of the regional air traffic 
centers under a contract with the FAA. Their conclusion was 
apparently not what FAA wanted to hear. Booz Allen found that 
air traffic controllers have a strong desire to have on-site 
weather forecasters and considered the services of the 
meteorologists highly valuable, and the air traffic controllers 
expressed ``sensitivity''--that is the phrase of Booz Allen--to 
any actions that might terminate or severely alter the delivery 
method of those services.
    This weather forecasting supports, by the FAA's own 
calculations, a $1 trillion aviation industry. Currently the 
FAA is spending approximately $1 billion a year on NextGen 
development, so the $12 million for aviation weather 
forecasting that FAA pays the NWS for seems like a bargain.
    Now, still, FAA has pushed the National Weather Service to 
consolidate their aviation weather service to a single center 
since 2005. The FAA's determination to force the NWS to 
reorganize does not appear supported by any particular evidence 
of a significant problem with the current system that cannot be 
addressed within the system, or any evidence that there is 
substantial waste in the current system.
    FAA's determination appears not supported by any evidence 
that a consolidated system would provide better service or even 
service as good as what the NWS now provides.
    Again, air traffic controllers like the NWS system just 
fine and don't want to change it. GAO concludes that the FAA 
settled for a solution for reorganizing aviation weather 
services before they could clearly articulate their own 
requirements for those services and before they had given any 
thought to how to measure existing performance. In other words, 
FAA decided on a solution before they figured out if they had a 
problem.
    Only since the last GAO report of 2008 has the FAA and the 
National Weather Service begun to develop performance metrics 
for the aviation weather units. Now, for the first time, an 
exercise is underway by FAA and NWS to baseline the performance 
of existing units through these baselines--though these 
baselines are built on impressionistic interviews rather than a 
steady aggregation of hard performance numbers.
    We all support performance-based decisions and a commitment 
to continuing improvement, two slogans the FAA and other 
government agencies frequently use, but the reality is that 
performance-based decisions-making--performance-based decision-
making requires meaningful, rigorous performance metrics. The 
FAA does not have those but has determined that a new 
organizational structure is needed.
    The FAA says that this consolidation will provide a solid 
platform to transition to the NextGen Air Transportation 
System, but we have--but they have not included NextGen's 
weather planning office in the discussion, about the 
requirements of the NWS, or in their evaluation of any of the 
proposed reorganizations.
    The Federal Aviation Administration has claimed that the 
consolidation will save at least $2 million, but those savings 
can only come through reducing the number of weather 
forecasters who are dedicated to supporting the needs of 
aviation.
    Ultimately, the FAA has pushed for a plan to consolidate 
aviation weather services that does not respond to a clearly-
articulated need or problem and would change a system that has 
air traffic controllers' full support. A shift in how services 
are delivered will cost money to test, and if adopted, will 
create new risks that don't exist in the current system. 
Perhaps that will result in a greater mass, critical mass of 
expertise in one place, but the down-sizing of the staff will 
leave each forecaster responsible for more air space and 
deprive air traffic controllers of a forecaster to stand over 
their shoulder in a weather crisis, a critical mass of 
expertise that air traffic controllers care about a lot.
    In preparing for this hearing the Subcommittee gathered 
information from the FAA, the NWS, the National Transportation 
Safety Board, the air traffic controllers' union,\1\ the 
weather service employees' union,\2\ and the Government 
Accountability Office. We also received the witnesses' 
testimony in recent days. The point of the exercise of this new 
structure is still hard to understand.
---------------------------------------------------------------------------
    \1\ The National Air Traffic Controllers Association
    \2\ The National Weather Service Employees Organization
---------------------------------------------------------------------------
    And with that I now recognize the Ranking Member, Dr. Broun 
from Georgia, for his opening statement.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    Good morning.
    This subcommittee has frequently struggled with the peculiar 
nonchalance of some government agencies in the face of that obvious 
dysfunction of critical programs. Today we struggle with the equally 
peculiar determination by the FAA to solve a problem that appears not 
to exist, to fix what ain't broke.
    The current system for delivering aviation weather products for air 
traffic control appears to work pretty well. For thirty years, the 
National Weather Service (NWS) has provided support to the Federal 
Aviation Administration (FAA) through aviation weather forecast units 
that are located at each of the twenty-one regional air traffic 
centers. There are 84 forecasters spread among those 21 centers 
offering 16 hours of service each day at an annual cost of $12 million; 
the system appears to be lean and well suited to air traffic 
controllers' needs.
    In 2006, Booz Allen Hamilton conducted a survey of air traffic 
controllers at seven of the regional air traffic centers under a 
contract with the FAA. Their conclusion was apparently not what FAA 
probably wanted to hear. Booz Allen found the air traffic controllers 
``have a strong desire to have on-site'' weather forecasters and that 
they ``considered the services of the . . . meteorologists highly 
valuable and expressed sensitivity to any actions that might terminate 
or severely alter the delivery method of these services.''
    This weather forecasting supports--by the FAA's own calculations--a 
one trillion dollar aviation industry. Currently, the FAA is spending 
approximately $1 billion a year on NextGen development, so the $12 
million for aviation weather forecasting that the FAA pays the NWS 
seems like a bargain.
    Still, FAA has been pushing the NWS to consolidate their aviation 
weather service to a single center since 2005. The FAA's determination 
to force the NWS to reorganize does not appear supported by any 
evidence of a significant problems with the current system that cannot 
be addressed within that system, or any evidence that there is 
substantial waste in the current system. FAA's determination appears 
not supported by any evidence that a consolidated system would provide 
better service, or even service as good as what the NWS now provides. 
Again, air traffic controllers like the NWS' service just fine and 
don't want to change it.
    GAO concludes that the FAA settled on a solution for reorganizing 
aviation weather services before they could clearly articulate their 
own requirements for these services, and before they had given any 
thought to how to measure existing performance--in other words, FAA 
decided on a solution before they figured out if they had a problem. 
Only since the last GAO report of 2008 has the FAA and the National 
Weather Service begun to develop performance metrics for the aviation 
weather units. Now, for the first time, an exercise is finally underway 
by FAA and NWS to baseline the performance of the existing units-though 
these ``baselines'' are built on impressionistic interviews rather than 
a steady aggregation of hard performance numbers.
    We all support performance-based decision-making and a commitment 
to continuous improvement--two slogans that the FAA likes to intone--
but the reality is that performance-based decision-making requires 
meaningful, rigorous performance metrics. The FAA doesn't have those, 
but has already determined that a new organization structure is needed.
    The FAA likes to claim that this consolidation will provide a solid 
platform to transition to the NextGen air management system. However, 
they have not included NextGen's weather planning office in the 
discussion about requirements for the NWS or in the evaluation of any 
of the proposed reorganizations.
    The Federal Aviation Administration has claimed that consolidation 
will save at least $2 million, but those savings can only come through 
reducing the number of weather forecasters who are dedicated to 
supporting the needs of aviation.
    Ultimately, the FAA has pushed for a plan to consolidate aviation 
weather services, that does not respond to a clearly articulated need 
or problem, and would change a system that has air traffic controllers' 
full support. A shift in how services are delivered will cost money to 
test and, if adopted, will create new risks that don't exist in the 
current system. Perhaps that will result in a greater ``mass'' of 
expertise in one place, but the down-sizing of the staff will leave 
each forecaster responsible for more air space, and deprives air 
traffic controllers of a forecaster to stand over their shoulder in a 
weather crisis.
    In preparing for this hearing, the Subcommittee gathered 
information from the FAA, the NWS, the National Transportation Safety 
Board, the air traffic controllers union, the weather service employees 
union and the Government Accountability Office. We also received the 
witnesses' testimony in recent days. The point of the FAA's exercise is 
hard to understand.

    Mr. Broun. Thank you, Mr. Chairman. I want to welcome the 
witnesses here today and thank them for participating in this 
important hearing on the National Weather Service's aviation 
weather forecasting proposal to the FAA.
    As an instrument-rated pilot myself, I understand that 
aviation weather forecasting is critically important. Aside 
from the obvious and primary concern of safety, the FAA 
estimates that weather-related delays have cost $41 billion in 
the socioeconomic impact on the U.S. economy. In order to 
ensure safety and mitigate these impacts, the Weather Service 
provides aviation weather information on a reimbursable basis 
to the FAA.
    Since these organizations are tasked with providing 
aviation weather information and ensuring air traffic safety, 
coordination is imperative. Unfortunately, several reviews in 
recent years have found opportunities where coordination could 
be strengthened and services improved.
    In an attempt to address these issues and decrease 
operating costs, the FAA requested the Weather Service to 
restructure its center, weather service units by consolidating 
offices, provide remote services, reduce personnel costs, and 
provide services 24 hours a day, seven days a week.
    On June 3 the Weather Service issued its current plan after 
having two previous proposals rejected by the FAA. The proposal 
put forward in June by the Weather Service is far from perfect. 
I think they will even admit this. They clearly have to work--
have work to do to establish performance baselines to ensure 
that service will not be degraded. They have challenges 
relating to infrastructure and technology. Questions remain 
about how this will fit within the FAA's NextGen initiative, if 
at all, and interagency collaboration remains a concern.
    While it may seem that recent GAO reviews are critical of 
the Weather Service's proposals, one has to realize that the 
Weather Service is simply responding to the FAA's direction. 
This coordination process between the two entities is unique 
and perplexing. The FAA is acting as a customer for weather 
service products and has provided the Weather Service with its 
requirements. Because the FAA no longer considers private 
vendors an option for fulfilling these requirements, the 
Weather Service is in essence a sole source contractor for FAA; 
a situation vendors usually relish as it puts them in an 
advantageous negotiating position.
    Instead, the Weather Service has put forth several 
proposals only to have them rejected, most recently because of 
cost. I hope the FAA realizes that new requirements are usually 
accompanied by new costs.
    Sure, technological advancements improve processes, can 
achieve cost savings, but when a customer demands more from its 
vendor, it should be willing to pay for it. Similarly, if a 
customer wants to pay less for a product, they shouldn't be 
surprised when they get less in return.
    This may seem like trivial bureaucratic bickering, but it 
has real world implications to both commerce and airline 
passenger safety. I am happy to hear the coordination between 
the two entities is strengthening and hope that the partnership 
can find a solution that is amenable to both parties because 
ultimately the customers are our constituents and the vendor is 
the government.
    As a pilot myself, I will do everything I can to make sure 
this transaction goes smoothly and that the pilots and 
passengers in the air have the information that they 
desperately need to perform safe operations in their aviation 
endeavors.
    With that, Mr. Chairman, I yield back the balance of my 
time. Thank you.
    [The prepared statement of Mr. Broun follows:]
           Prepared Statement of Representative Paul C. Broun
    Thank you, Mr. Chairman. I want to welcome the witnesses here 
today, and thank them for participating in this important hearing on 
the National Weather Service's (NWS) aviation weather forecasting 
proposal to the Federal Aviation Administration (FAA).
    As an instrument rated pilot myself, I understand that aviation 
weather forecasting is critically important. Aside from the obvious and 
primary concern of safety, the FAA estimates that weather related 
delays have a $41 billion socioeconomic impact on the U.S. economy. In 
order to ensure safety and mitigate these impacts, the NWS provides 
aviation weather information on a reimbursable basis to the FAA. Since 
these organizations are tasked with providing aviation weather 
information and ensuring air traffic safety, coordination is 
imperative.
    Unfortunately, several reviews in recent years have found 
opportunities where coordination could be strengthened and services 
improved. In an attempt to address these issues and decrease operating 
costs, the FAA requested that the NWS restructure its center weather 
service units by consolidating offices, provide remote services, reduce 
personnel costs, and provide services 24 hours a day, seven days a 
week. On June 3, the NWS issued its current plan after having two 
previous proposal rejected by the FAA.
    The proposal put forward in June by the NWS is far from perfect--I 
think even they will admit this. They clearly have work to do to 
establish performance baselines to ensure that service will not be 
degraded; they have challenges relating to infrastructure and 
technology; questions remain about how this will fit in with the FAA's 
NextGen initiative--if at all; and interagency collaboration remains a 
concern.
    While it may seem that recent GAO reviews are critical of the NWS 
proposals, one has to realize that the Weather Service is simply 
responding to the FAA's direction. This coordination process between 
the two entities is unique and perplexing. The FAA is acting as a 
customer for NWS products and has provided NWS with its requirements. 
Because the FAA no longer considers private vendors an option for 
fulfilling these requirements, the NWS is in essence a sole-source 
contractor for FAA--a situation vendors usually relish as it puts them 
in an advantageous negotiating position. Instead, the NWS has put forth 
several proposals, only to have them rejected--most recently because of 
cost. I hope that the FAA realizes that new requirements are usually 
accompanied by new costs. Sure, technological advancements and improved 
processes can achieve cost savings, but when a customer demands more 
from its vendor, it should be willing to pay for it. Similarly, if a 
customer wants to pay less for a product, they shouldn't be surprised 
when they get less in return.
    This may seem like trivial bureaucratic bickering, but it has real 
world implications to both commerce and airline passenger safety. I am 
happy to hear that coordination between the two entities is 
strengthening, and hope that the partnership can find a solution that 
is amenable to both parties, because ultimately the customers are our 
constituents, and the vendor is the government. As a pilot myself, I'll 
do everything I can to make sure this transaction goes smoothly.
    With that, Mr. Chairman, I yield back my time.
    Thank you.

    Chairman Miller. Thank you, Dr. Broun. I am not a pilot, 
but I am a frequent passenger as are all Members of Congress.
    I ask unanimous consent that all additional opening 
statements submitted by Members be included in the record, and 
without objection is so ordered.
    It is now my pleasure to introduce our first panel of 
witnesses. First is Mr. David Powner, a fairly frequent witness 
here for the Subcommittee. He is the Director of Information 
Technology Management Issues at the Government Accountability 
Office, the GAO. Dr. Jack Hayes is the Assistant Administrator 
for National Weather Service at the National Oceanic and 
Atmospheric Administration, NOAA. And Mr. Richard Day is the 
Senior Vice President for Operations of the Air Traffic 
Organization at the U.S. Federal Aviation Administration, the 
FAA.
    Each of our witnesses should know you will have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you have 
completed your spoken testimony, you will be given--you will 
begin--we will begin with questions, and each Member will have 
five minutes to question the panel.
    It is the practice of the Subcommittee to receive testimony 
under oath. Do any of you have any objection to taking an oath? 
The record will reflect that none of the witnesses expressed an 
objection.
    You also have the right to be represented by counsel. Do 
any of you have counsel here? The record will reflect that all 
the witnesses indicated that they did not have counsel.
    And will you now please stand and raise your right hand? Do 
you swear to tell the truth and nothing but the truth? The 
record will reflect that all of the witnesses took the oath.
    We will now begin with Mr. Powner of GAO. Mr. Powner, 
please begin.

    STATEMENT OF MR. DAVID A. POWNER, DIRECTOR, INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Powner. Chairman Miller, Ranking Member Broun, we 
appreciate the opportunity to testify on our aviation weather 
work.
    The National Weather Service supports the Federal Aviation 
Administration by providing aviation-related forecasts and 
warnings at air traffic control and route centers across the 
country. These forecasts and warnings include information on 
thunderstorms, air turbulence, and icing. These services are 
provided through an interagency agreement, and FAA reimburses 
NWS approximately $12 million annually for them.
    Last year I testified on the many issues with this 
arrangement, which included NWS providing inconsistent weather 
products across the 21 en route centers, FAA's inability to 
clearly define requirements or what it needs, both agencies' 
lack of performance measures to ensure quality of weather 
observations, and multiple proposals to restructure that were 
each rejected.
    A brief history of these proposals is worth revisiting. In 
2005, FAA requested that NWS restructure to a smaller number of 
sites to reduce costs. In 2006, a proposal was submitted which 
FAA rejected in 2007, because it did not reduce the number of 
sites or costs. In December, 2007, FAA provided NWS with a new 
set of requirements and requested a proposal for three 
operational concepts. NWS provided this proposal in May, 2008, 
but FAA rejected it because the costs were too high.
    In September, 2008, NWS--FAA requested that NWS provide 
another restructuring proposal by December, 2008, to go to two 
sites. NWS submitted this proposal last month, six months later 
than when it was due. The proposal reduces the weather units 
from 20 to two locations, reduces NWS staff from 84 to 50, is 
planned to take three years, will cost almost $13 million, and 
is expected to reduce the annual cost by roughly $2 million per 
year. FAA plans to respond to this proposal by August 3.
    So four years into this we are now on our third major 
restructuring proposal with no clear business case driving the 
potential change. In addition, there are many challenges FAA 
and NWS must address if they decide to move forward with the 
latest proposal.
    Before getting into these challenges I would like to 
acknowledge that there has been some progress by NWS in 
improving the consistency of their weather products and 
defining and baselining certain performance measures, but much 
work still remains here on both fronts.
    Turning to the challenges. My written testimony lays out 
several major challenges if the current weather aviation 
structure is modified. I would like to highlight five of these.
    First, interagency collaboration. These agencies have not 
worked well together to resolve issues and to accomplish 
meaningful change. Since 2005, FAA has rejected all proposals, 
and we have had four years of very little action.
    Second, solidifying requirements. FAA provided a 
comprehensive set of requirements in January, 2008, and these 
have not been updated despite the fact that modifications have 
been discussed by the two agencies. It is extremely important 
to formally update requirements given the historical working 
relationship.
    Third, aligning restructuring with the Next Generation Air 
Transportation System. Neither agency has ensured that the 
restructuring aligns with the NextGen national vision for 
restructuring air traffic facilities.
    Fourth, ensuring no degradation of service. In its proposal 
NWS plans to demonstrate the new two-site operational concept 
in a nine-month demonstration project. In addition, NWS has 
proposed that an independent evaluation team of both government 
and industry officials review this demonstration. While these 
are logical steps, the performance measures to demonstrate no 
degradation of service have not been defined, and as we have 
stated prior, baseline metrics are limited. Ensuring no 
degradation of service will be extremely difficult, if not 
impossible, without having a clear set of performance metrics.
    Fifth, technology transition. To restructure aviation 
weather services, both agencies need to modify weather systems. 
Moving forward NWS and FAA need to improve performance measures 
and continue to baseline performance, improve interagency 
collaboration by agreeing to a future concept of operations, 
finalize and clearly document requirements for aviation weather 
services, ensure that any restructuring is aligned with the 
NextGen initiative, undertake a comprehensive demonstration 
that measures success against baseline performance measures to 
ensure that any restructuring does not result in degraded 
service and does not jeopardize safety.
    And finally, NWS and FAA need to effectively transition the 
technologies to a new operational concept, if, in fact, this is 
pursued.
    Mr. Chairman, this concludes my statement. I would be 
pleased to respond to questions.
    [The prepared statement of Mr. Powner follows:]
                 Prepared Statement of David A. Powner

Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to participate in today's hearing on 
the proposed changes to the aviation weather services provided at the 
Federal Aviation Administration's (FAA) en route centers. The National 
Weather Service (NWS) plays a significant role in providing weather 
services to the aviation community. NWS's weather products and data are 
vital components of FAA's air traffic control system, providing weather 
information to local, regional, and national air traffic management, 
navigation, and surveillance systems. NWS aviation weather products 
include forecasts and warnings of meteorological conditions that could 
affect air traffic, including thunderstorms, air turbulence, and icing. 
In addition to providing aviation weather products that are developed 
at its own facilities, NWS also provides staff on-site at each of FAA's 
en route centers--the facilities that control high-altitude flight 
outside the airport tower and terminal areas. This group of NWS 
meteorologists--called a center weather service unit--provides air 
traffic staff with forecasts, advisories, and periodic weather 
briefings on regional conditions.
    Over the last few years, FAA and NWS have been exploring options 
for enhancing the efficiency of the aviation weather services provided 
at en route centers. In September 2005, FAA asked NWS to restructure 
its services to be more efficient. Since then, NWS has developed and 
submitted two proposals to FAA, both of which were rejected. NWS 
subsequently submitted another proposal. As requested, this statement 
summarizes our draft report that (1) determines the status and plans of 
efforts to restructure the center weather service units, (2) evaluates 
efforts to establish a baseline of the current performance provided by 
the center weather service units so that FAA and NWS can ensure that 
any operational changes do not degrade aviation weather services, and 
(3) evaluates challenges to restructuring the center weather service 
units.
    In preparing our draft report and this testimony, we reviewed NWS's 
proposals and transition plans for restructuring the service units and 
FAA's response to NWS's proposals. We identified both agencies' efforts 
to establish a baseline of current performance and compared these 
efforts to government guidance and best practices of leading 
organizations in performance management. To identify challenges, we 
compared the agencies' plans with best practices of leading 
organizations in system development, interagency collaboration, and 
architecture planning. We also interviewed relevant agency officials. 
All of our work for this report was performed in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives. A more detailed description of the scope 
and methodology of our draft report is provided in Attachment 1.

Background

    FAA is responsible for ensuring safe, orderly, and efficient air 
travel in the national airspace system. NWS supports FAA by providing 
aviation-related forecasts and warnings at air traffic facilities 
across the country. Among other support and services, NWS provides four 
meteorologists at each of FAA's 21 en route centers to provide on-site 
aviation weather services. This arrangement is defined and funded under 
an interagency agreement.

FAA's Mission and Organizational Structure

    FAA's primary mission is to ensure safe, orderly, and efficient air 
travel in the national airspace system. FAA reported that, in 2007, air 
traffic in the national airspace system exceeded 46 million flights and 
776 million passengers. In addition, at any one time, as many as 7,000 
aircraft--both civilian and military--could be aloft over the United 
States. In 2004, FAA's Air Traffic Organization was formed to, among 
other responsibilities, improve the provision of air traffic services. 
More than 33,000 employees within FAA's Air Traffic Organization 
support the operations that help move aircraft through the national 
airspace system. The agency's ability to fulfill its mission depends on 
the adequacy and reliability of its air traffic control systems, as 
well as weather forecasts made available by NWS and automated systems. 
These resources reside at, or axe associated with, several types of 
facilities: air traffic control towers, terminal radar approach control 
facilities, air route traffic control centers (en route centers), and 
the Air Traffic Control System Command Center. The number and functions 
of these facilities are as follows:

        <bullet>  517 air traffic control towers manage and control the 
        airspace within about five miles of an airport. They control 
        departures and landings, as well as ground operations on 
        airport taxiways and runways.

        <bullet>  170 terminal radar approach control facilities 
        provide air traffic control services for airspace within 
        approximately 40 miles of an airport and generally up to 10,000 
        feet above the airport, where en route centers' control begins. 
        Terminal controllers establish and maintain the sequence and 
        separation of aircraft.

        <bullet>  21 en route centers control planes over the United 
        States--in transit and during approaches to some airports. Each 
        center handles a different region of airspace. En route centers 
        operate the computer suite that processes radar surveillance 
        and flight planning data, reformats it for presentation 
        purposes, and sends it to display equipment that is used by 
        controllers to track aircraft. The centers control the 
        switching of voice communications between aircraft and the 
        center, as well as between the center and other air traffic 
        control facilities. Three of these en route centers also 
        control air traffic over the oceans.

        <bullet>  The Air Traffic Control System Command Center manages 
        the flow of air traffic within the United States. This facility 
        regulates air traffic when weather, equipment, runway closures, 
        or other conditions place stress on the national airspace 
        system. In these instances, traffic management specialists at 
        the command center take action to modify traffic demands in 
        order to keep traffic within system capacity.

    See Figure 1 for a visual summary of the facilities that control 
and manage air traffic over the United States.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


NWS's Mission and Organizational Structure

    The mission of NWS--an agency within the Department of Commerce's 
National Oceanic and Atmospheric Administration (NOAA)--is to provide 
weather, water, and climate forecasts and warnings for the United 
States, its territories, and its adjacent waters and oceans to protect 
life and property and to enhance the national economy. In addition, NWS 
is the official source of aviation- and marine-related weather 
forecasts and warnings, as well as warnings about life-threatening 
weather situations.
    The coordinated activities of weather facilities throughout the 
United States allow NWS to deliver a broad spectrum of climate, 
weather, water, and space weather services in support of its mission. 
These facilities include 122 weather forecast offices located across 
the country that provide a wide variety of weather, water, and climate 
services for their local county warning areas, including advisories, 
warnings, and forecasts; nine national prediction centers\1\ that 
provide nationwide computer modeling to all NWS field offices; and 21 
center weather service units that are located at FAA en route centers 
across the Nation and provide meteorological support to air traffic 
controllers.
---------------------------------------------------------------------------
    \1\ These centers include the National Centers for Environmental 
Prediction Central Operations, Aviation Weather Center, Environmental 
Modeling Center, Hydrometeorological Prediction Center, Ocean 
Prediction Center, Storm Prediction Center, Tropical Prediction Center/
National Hurricane Center, Climate Prediction Center, and Space 
Environment Center.

NWS Provides Aviation Weather Services to FAA

    As an official source of aviation weather forecasts and warnings, 
several NWS facilities provide aviation weather products and services 
to FAA and the aviation sector. These facilities include the Aviation 
Weather Center, weather forecast offices located across the country, 
and 21 center weather service units located at FAA en route centers 
across the country.

Aviation Weather Center
    The Aviation Weather Center located in Kansas City, Missouri, 
issues warnings, forecasts, and analyses of hazardous weather for 
aviation. Staffed by 65 personnel, the center develops warnings of 
hazardous weather for aircraft in flight and forecasts of weather 
conditions for the next two days that could affect both domestic and 
international aviation. The center also produces a Collaborative 
Convective Forecast Product, a graphical representation of convective 
occurrence at two-, four- and six-hours. This is used by FAA to manage 
aviation traffic flow across the country. The Aviation Weather Center's 
key products are described in Table 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Weather Forecast Offices
    NWS's 122 weather forecast offices issue terminal area forecasts 
for approximately 625 locations every six hours or when conditions 
change, consisting of the expected weather conditions significant to a 
given airport or terminal area and are primarily used by commercial and 
general aviation pilots.

Center Weather Service Units
    NWS's center weather service units are located at each of FAA's 21 
en route centers and operate 16 hours a day, seven days a week (see 
Fig. 2). Each center weather service unit usually consists of three 
meteorologists and a meteorologist-in-charge who provide strategic 
advice and aviation weather forecasts to FAA traffic management 
personnel. Governed by an interagency agreement, FAA currently 
reimburses NWS approximately $12 million annually for this support.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Center Weather Service Units: An Overview of Systems and Operations
    The meteorologists at the center weather service units use a 
variety of systems to gather and analyze information compiled from NWS 
and FAA weather sensors. Key systems used to compile weather 
information include FAA's Weather and Radar Processor, FAA's Integrated 
Terminal Weather System, FAA's Corridor Integrated Weather System, and 
a remote display of NWS's Advanced Weather Interactive Processing 
System. Meteorologists at several center weather service units also use 
NWS's National Center Advanced Weather Interactive Processing System. 
Table 2 provides a description of selected systems.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NWS meteorologists at the en route centers provide several products 
and services to the FAA staff, including meteorological impact 
statements, center weather advisories, periodic briefings, and on-
demand consultations. These products and services are described in 
Table 3. In addition, center weather service unit meteorologists 
receive and disseminate pilot reports, provide input every two hours to 
the Aviation Weather Center's creation of the Collaborative Convective 
Forecast Product, train FAA personnel on how to interpret weather 
information, and provide weather briefings to nearby terminal radar 
approach control facilities and air traffic control towers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


FAA Seeks to Improve Aviation Weather Services Provided at En Route 
                    Centers

    In recent years, FAA has undertaken multiple initiatives to assess 
and improve the performance of the center weather service units.\2\ 
Studies conducted in 2003 and 2006 highlighted concerns with the lack 
of standardization of products and services at NWS's center weather 
service units. To address these concerns, the agency sponsored studies 
that determined that weather data could be provided remotely using 
current technologies, and that private sector vendors could provide 
these services. In 2005, the agency requested that NWS restructure its 
aviation weather services by consolidating its center weather service 
units to a smaller number of sites, reducing personnel costs, and 
providing products and services 24 hours a day, seven days a week. NWS 
subsequently submitted a proposal for restructuring its services, but 
FAA declined the proposal citing the need to refine its requirements.
---------------------------------------------------------------------------
    \2\ FAA is also involved in a longer-term initiative to increase 
the efficiency of the national airspace system and to improve its 
overall safety. This initiative, called the Next Generation Air 
Transportation System, is a joint effort of the Department of 
Transportation, the National Aeronautics and Space Administration, the 
White House Office of Science and Technology Policy, and the 
Departments of Homeland Security, Defense, and Commerce. FAA 
anticipates that this initiative may lead to major changes in the 
aviation weather program that would supersede its current efforts.
---------------------------------------------------------------------------
    In December 2007, FAA issued revised requirements and asked NWS to 
respond with proposals defining the technical and cost implications of 
three operational concepts. The three concepts involved (1) on-site 
services provided within the existing configuration of offices located 
at the 21 en route centers, (2) remote services provided by a reduced 
number of regional facilities, and (3) remote services provided by a 
single centralized facility. NWS responded with three proposals, but 
FAA rejected these proposals in September 2008, noting that while 
elements of each proposal had merit, the proposed costs were too high. 
FAA requested that NWS revise its proposal to bring costs down while 
stating a preference to move towards a single center weather service 
unit with a back-up site.
    As a separate initiative, NWS initiated an improvement program for 
the center weather service units in April 2008. The goal of the program 
was to improve the consistency of the units' products and services. 
This program involved standardizing the technology, collaboration, and 
training for all 21 center weather service units and conducting site 
visits to evaluate each unit. NWS reported that it has completed its 
efforts to standardize the service units and plans to complete its site 
visits by September 2009. Table 4 provides a chronology of the 
agencies' assessment and improvement efforts.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Prior GAO Report Identified Concerns With Center Weather Service Units; 
                    Recommended Steps to Improve Quality Assurance

    In January 2008, we reported on concerns about inconsistencies in 
products and quality among Center Weather Service Units.\3\ We noted 
that while both NWS and FAA have responsibilities for assuring and 
controlling the quality of aviation weather observations, neither 
agency monitored the accuracy and quality of the aviation weather 
products provided at center weather service units. We recommended that 
NWS and FAA develop performance measures and metrics for the products 
and services to be provided by center weather service units, perform 
annual evaluations of aviation weather services provided at en route 
centers, and provide feedback to the center weather service units. The 
Department of Commerce agreed with our recommendations, and the 
Department of Transportation stated that FAA planned to revise its 
requirements and that these would establish performance measure and 
evaluation procedures.
---------------------------------------------------------------------------
    \3\ GAO, Aviation Weather: FAA Is Reevaluating Services at Key 
Centers; Both FAA and the National Weather Service Need to Better 
Ensure Product Quality, GAO-08-258 (Washington, D.C.: Jan. 11, 2008).

Proposal to Consolidate Center Weather Service Units Is Under 
                    Consideration

    NWS and FAA are considering plans to restructure the way aviation 
weather services are provided at en route centers. After a six-month 
delay, NWS sent FAA its latest proposal for restructuring the center 
weather service units in June 2009.\4\ NWS's proposal involves 
consolidating 20 of the 21 existing center weather service units into 
two locations, with one at the Aviation Weather Center in Kansas City, 
Missouri and the other at a new National Centers for Environmental 
Prediction office planned for the DC metropolitan area of Maryland.\5\ 
The Missouri center is expected to handle the southern half of the 
United States while the Maryland center is expected to handle the 
northern half of the United States. NWS plans for the two new units to 
be staffed 24 hours a day, seven days a week, and to function as backup 
sites for each other. These new units would continue to use existing 
forecasting systems and tools to develop products and services. See 
Figure 3 for a visual summary of the proposed consolidated center 
weather service unit facilities that control and manage air traffic 
over the United States.
---------------------------------------------------------------------------
    \4\ NWS sought two extensions to the December 2008 deadline in 
order to allow NWS and FAA a chance to address public misperceptions 
and to brief the incoming administration and to arrange discussions 
between the appropriate NWS and FAA executives.
    \5\ NWS proposed that the center weather service unit located in 
Anchorage, Alaska remain unchanged.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While these new units would continue to use existing forecasting 
systems and tools to develop products and services, NWS has also 
proposed new products, services, and tools. Two new products are the 
collaborative weather impact product and the terminal radar approach 
control forecast. The former is expected to expand the Aviation Weather 
Center's existing Collaborative Convective Forecast Product to include 
convection, turbulence, icing, wind, ceiling/visibility, and 
precipitation type/intensity. The latter is expected to extract data 
from the Collaborative Weather Impact Product and include 
precipitation, winds, and convection for the terminal area; the display 
will allow the forecaster to layer this information on air traffic 
management information such as jet routes. In addition, NWS plans to 
create a web portal to allow FAA and other users to access its 
advisories, forecasts, products as well as national, regional, and 
local weather briefings. To support on-demand briefings at the new 
center weather service units, NWS plans to use collaboration tools, 
such as instant messaging and online collaboration software.
    Given the reduced number of locations in the revised organizational 
structure, NWS also proposed reducing the number of personnel needed to 
support its operations from 84 to 50 full time staff--a reduction of 34 
positions. Specifically, the agency determined that it will require 20 
staff members for each of the new center weather service units; four 
staff members at the Alaska unit; five additional forecasters at the 
Aviation Weather Center to help prepare the Collaborative Weather 
Impact Product; and a quality assurance manager at NWS headquarters. 
NWS anticipates the staff reductions will be achieved through scheduled 
retirements, resignations, and reassignments. However, the agency has 
identified the transition of its existing workforce to the new centers 
as a high-impact risk because staff may decline to move to the new 
locations.
    NWS also proposed tentative time frames for transitioning to the 
new organizational structure over a three-year period. During the first 
year after FAA accepts the proposal, NWS plans to develop a transition 
plan and conduct a nine-month demonstration of the concept in order to 
ensure that the new structure will not degrade its services. Agency 
officials estimated that initial operating capability would be achieved 
by the end of the second year after FAA approval and full operating 
capability by the end of the third year.
    NWS estimated the transition costs for this proposal at 
approximately $12.8 million, which includes approximately $3.3 million 
for the demonstration. In addition, NWS estimated that the annual 
recurring costs will be about 21 percent lower than current annual 
costs. For example, using 2009 prices, NWS estimated that the new 
structure would cost $9.7 million--about $2.6 million less than the 
current $12.3 million cost. See Table 5 for the estimated costs for 
transitioning the centers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, it is not clear when and if the agencies will move forward 
with the proposal. While FAA plans to respond in early August 2009, the 
agency could decide to reject the proposal or to modify its 
requirements, thereby triggering another NWS proposal. One 
consideration that may affect the proposal involves the current 
interagency agreement. The most recent agreement between the two 
agencies, signed in December 2007, is to expire at the end of September 
2009. Before it expires, the two agencies could choose to exercise an 
option to continue this agreement for another year, terminate the 
agreement, or sign a new agreement. An FAA official reported that the 
agency wanted to create a new agreement that includes key dates from 
the proposal, such as those related to the concept demonstration. This 
official added that such agreements typically take time to develop and 
coordinate between the agencies.

NWS and FAA Are Working to Establish a Baseline of Current Performance, 
                    But Are Not Assessing Key Measures

    According to best practices in leading organizations, performance 
should be measured in order to evaluate the success or failure of 
programs.\6\ Performance measurement involves identifying performance 
goals and measures, establishing performance baselines, identifying 
targets for improving performance, and measuring progress against those 
targets. Having a clear understanding of an organization's current 
performance--a baseline--is essential to determining whether new 
initiatives (like the proposed restructuring) result in improved or 
degraded products and services.
---------------------------------------------------------------------------
    \6\ Department of the Navy, Office of the Chief Information 
Officer, Guide for Developing and Using Information Technology (IT) 
Performance Measurements (Washington, D.C.: Oct. 2001); General 
Services Administration, Office of Government-wide Policy, Performance 
Based Management Eight Steps To Develop and Use Information Technology 
Performance Measures Effectively, (Washington, D.C.: 1996).
---------------------------------------------------------------------------
    In January 2008, we reported that NWS and FAA lacked performance 
measures and a baseline of current performance for the center weather 
service units and recommended that they develop performance 
measures.\7\ In response to this recommendation, FAA established five 
performance standards for the center weather service units. FAA also 
recommended that NWS identify additional performance measures in its 
proposal for restructuring the center weather service units. While NWS 
subsequently identified eight additional performance measures in its 
proposal, FAA has not yet approved these measures. However, FAA has not 
yet approved these measures. All 13 performance measures are listed in 
Table 6.
---------------------------------------------------------------------------
    \7\ GAO-08-258.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    NWS officials reported that they have historical data for one of 
the 13 performance measures--participation in the Collaborative 
Connective Forecast Product--and are working to obtain a baseline for 
three other performance measures.\8\ Specifically, in January 2009, NWS 
and FAA began evaluating how the center weather service units are 
performing and, as part of this initiative, are collecting data 
associated with organizational service provision, format consistency, 
and briefing service provision. As of June 2009, the agencies had 
completed evaluations of 13 service units and plan to complete 
evaluations for all 21 service units by September 2009.
---------------------------------------------------------------------------
    \8\ The agencies are working to obtain a baseline of the 21 center 
weather service units' performance in organizational service provision, 
format consistency, and briefing service provision.
---------------------------------------------------------------------------
    However, the agencies have not established a baseline of 
performance for the nine other performance measures. NWS officials 
reported that they are not collecting baseline information for a 
variety of reasons, including that the measures have not yet been 
approved by FAA, and that selected measures involve products that have 
not yet been developed. A summary of the status of efforts to establish 
baselines and reasons for not establishing baselines is provided in 
Table 7.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While four of the potential measures are tied to new products or 
services under the restructuring, the other five could be measured 
using current products and services. For example, accuracy and customer 
satisfaction axe measures that could be tracked for current operations. 
NWS continually measures the accuracy of a range of weather products--
including hurricane and tornado forecasts. Customer satisfaction 
measures could be determined by surveying the FAA managers who receive 
the aviation weather products.
    It is important to obtain an understanding of the current level of 
performance in these measures before beginning any efforts to 
restructure aviation weather services. Without an understanding of the 
current level of performance, NWS and FAA will not be able to measure 
the success or failure of any changes they make to the center weather 
service unit operations. As a result, any changes to the current 
structure could degrade aviation operations and safety--and the 
agencies may not know it.

NWS and FAA Face Challenges in Efforts to Modify the Current Aviation 
                    Weather Structure

    NWS and FAA face challenges in their efforts to modify the current 
aviation weather structure. These include challenges associated with 
(1) interagency collaboration, (2) defining requirements, and (3) 
aligning any changes with the Next Generation Air Transportation System 
(NextGen) )--along-term initiative to increase the efficiency of the 
national airspace system. Specifically, the two agencies have had 
difficulties in interagency collaboration and requirements development 
leading to an inability to reach agreement on a way forward. In 
addition, the restructuring proposals have not been aligned with the 
national strategic vision for the future air transportation system. 
Looking forward, if a proposal is accepted, the agencies could face 
three additional challenges in implementing the proposal, including (1) 
developing a feasible schedule that includes adequate time for 
stakeholder involvement, (2) undertaking a comprehensive demonstration 
to ensure no services are degraded, and (3) effectively reconfiguring 
the infrastructure and technologies to the new structure. Unless and 
until these challenges are addressed, the proposed restructuring of 
aviation weather services at en route centers has a reduced chance of 
success.

Interagency Collaboration

    To date, FAA and NWS have encountered challenges in interagency 
collaboration. We have previously reported on key practices that can 
help enhance and sustain interagency collaboration.\9\ The practices 
generally consist of two or more agencies defining a common outcome, 
establishing joint strategies to achieve the outcome, agreeing upon 
agency roles and responsibilities, establishing compatible policies and 
procedures to operate across agency boundaries, and developing 
mechanisms to monitor, evaluate, and report the results of 
collaborative efforts.
---------------------------------------------------------------------------
    \9\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration Among Federal Agencies, GAO-06-15 
(Washington, D.C.: Oct. 21, 2005).
---------------------------------------------------------------------------
    While NWS and FAA have established policies and procedures for 
operating across agencies through an interagency agreement and have 
initiated efforts to establish a baseline of performance for selected 
measures through their ongoing site evaluations, the agencies have not 
defined a common outcome, established joint strategies to achieve the 
outcome, or agreed upon agency responsibilities. Instead, the agencies 
have demonstrated an inability to work together to resolve issues and 
to accomplish meaningful change. Specifically, since 2005, FAA has 
requested that NWS restructure its aviation weather services three 
times, and then rejected NWS's proposals twice. Further, after 
requesting extensions twice, NWS provided its proposal to FAA in June 
2009. As a result, it is now almost four years since FAA first 
initiated efforts to improve NWS aviation weather services, and the 
agencies have not yet agreed on what needs to be changed and how it 
will be changed. Table 8 lists key events.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Until the agencies agree on a common outcome, establish joint 
strategies to achieve the outcome, and agree on respective agency 
responsibilities, they are unlikely to move forward in efforts to 
restructure weather services. Without sound interagency collaboration, 
both FAA and NWS will continue to spend time and resources proposing 
and rejecting options rather than implementing solutions.

Defining Requirements

    The two agencies' difficulties in determining how to proceed with 
their restructuring plans are due in part to a lack of stability in 
FAA's requirements for center weather service units. According to the 
best practices of leading organizations, requirements describe the 
functionality needed to meet user needs and perform as intended in the 
operational environment.\10\ A disciplined process for developing and 
managing requirements can help reduce the risks associated with 
developing or acquiring a system or product.
---------------------------------------------------------------------------
    \10\ Carnegie Mellon University Software Engineering Institute, 
Capability Maturity Model Integration for Development, Version 1.2 
(Pittsburgh, PA: August 2006). Capability Maturity Model and 
Capability Maturity Modeling are registered in the U.S. Patent and 
Trademark Office. CMM is a service mark of Carnegie Mellon University.
---------------------------------------------------------------------------
    FAA released its revised requirements in December 2007 and NWS 
subsequently provided proposals to meet these requirements. However, 
FAA rejected all three of NWS's proposals in September 2008 on the 
basis that the costs of the proposals were too high, even though cost 
was not specified in FAA's requirements. NWS's latest proposal is based 
on FAA's December 2007 requirements as well as detailed discussions 
held between the two agencies in October 2008. However, FAA has not 
revised its requirement to reflect the guidance it provided to NWS in 
those discussions, including reported guidance on handling the Alaska 
center and moving to the two-center approach. Without formal 
requirements developed prior to the development of the new products and 
services, FAA runs the risk of procuring products and services that do 
not fully meet their users' needs or perform as intended. In addition, 
NWS risks continued investments in trying to create a product for FAA 
without clear information on what the agency wants.

Alignment with the Next Generation Air Transportation System

    Neither FAA nor NWS have ensured that the restructuring of the 
center weather service units fits with the national vision for a Next 
Generation Air Transportation System (NextGen)--a long-term initiative 
to transition FAA from the current radar-based system to an aircraft-
centered, satellite-based system. Our prior work on enterprise 
architectures shows that connecting strategic planning with program and 
system solutions can increase the chances that an organization's 
operational and IT environments will be configured to optimize mission 
performance.\11\ Our experience with federal agencies has shown that 
investing in IT without defining these investments in the context of a 
larger, strategic vision often results in systems that are duplicative, 
not well integrated, and unnecessarily costly to maintain and 
interface.
---------------------------------------------------------------------------
    \11\ GAO, Enterprise Architecture: Leadership Remains Key to 
Establishing and Leveraging Architectures for Organizational 
Transformation, GAO-06-831 (Washington, D.C.: Aug. 14, 2006).
---------------------------------------------------------------------------
    The Joint Planning and Development Office\12\ is responsible for 
planning and coordinating NextGen. As part of this program, the Joint 
Planning and Development Office envisions restructuring air traffic 
facilities, including en route centers, across the country as well as a 
transitioning to new technologies. However, NWS and FAA efforts to 
restructure the center weather service units have not been aligned with 
the Joint Planning and Development Office's vision for transforming air 
traffic control under the NextGen program. Specifically, the Chair of 
NextGen's weather group stated that Joint Planning and Development 
Office officials have not evaluated NWS and FAA's plans for 
restructuring the center weather service units, nor have they been 
asked to do so.
---------------------------------------------------------------------------
    \12\ The Joint Planning and Development Office has multiple federal 
partners, including FAA; the Departments of Transportation, Commerce, 
Defense, and Homeland Security; the National Aeronautics and Space 
Administration; and the White House Office of Science and Technology 
Policy.
---------------------------------------------------------------------------
    Other groups within FAA are responsible for aligning the agency's 
enterprise architecture with the NextGen vision through annual roadmaps 
that define near-term initiatives.\13\ However, recent roadmaps for 
aviation weather do not include any discussion of plans to restructure 
the center weather service units or the potential impact that such a 
change could have on aviation weather systems. Additionally, in its 
proposal, NWS stated that it followed FAA's guidance to avoid tightly 
linking the transition schedule to NextGen's expected Initial Operating 
Capability in 2013, but recommended doing so since the specific role of 
the center weather service units in NextGen operations is unknown.
---------------------------------------------------------------------------
    \13\ These groups include the NextGen and Operations Planning 
Service Unit's Aviation Weather Office, Systems Engineering Office, and 
NextGen Integration and Implementation Office.
---------------------------------------------------------------------------
    Until the agencies ensure that changes to the center weather 
service units fit within the strategic-level and implementation plans 
for NextGen, any changes to the current structure could result in 
wasted efforts and resources.

Schedule Development

    Looking forward, if a proposal is accepted, both agencies could 
also face challenges in developing a feasible schedule that includes 
adequate time for stakeholder involvement. NWS estimated a three-year 
transition timeframe from current operations to the two-center 
approach. FAA officials commented that they would like to have the two-
center approach in place by 2012. However, NWS may have difficulty in 
meeting the transition timeframes because activities that need to be 
conducted serially are planned concurrently within the three-year 
schedule. For example, NWS may need to negotiate with its union before 
implementing changes that affect working conditions--such as moving 
operations from an en route center to a remote location.\14\ NWS 
officials acknowledge the risk that these negotiations can be prolonged 
and sometimes take years to complete. If the proposal is accepted, it 
will be important for NWS to identify activities that must be conducted 
before others in order to build a feasible schedule.
---------------------------------------------------------------------------
    \14\ NWS's agreement with its union includes the need to negotiate 
on the impact and implementation of any changes affecting working 
conditions before those changes can be implemented. As such, any effort 
to realign the center weather service units will involve negotiations 
between union employees and NWS management.

Demonstrating No Degradation of Service

    If a proposal is accepted, both agencies could face challenges in 
demonstrating that existing services will not be degraded during the 
restructuring. In its proposal, NWS identified preliminary plans to 
demonstrate the new operational concept before implementing it in order 
to ensure that there is no degradation of service. Key steps included 
establishing a detailed demonstration plan, conducting risk mitigation 
activities, and implementing a demonstration that is to last at least 
nine months. NWS also proposed that the demonstration will include an 
independent evaluation by a team of government and industry both before 
the demonstration, to determine if the demonstration is adequate to 
validate the new concept of operations, and after, to determine the 
success of the demonstration. In addition, throughout the nine-month 
demonstration, NWS plans to have the independent team periodically 
provide feedback, recommendations, and corrective actions.
    However, as noted earlier, NWS has not yet defined all of the 
performance measures it will use to determine whether the prototype is 
successful. In its proposal, NWS stated that the agencies will begin to 
document performance metrics and develop and refine evaluation criteria 
during the demonstration. If NWS waits to define evaluation criteria 
during the evaluation, it may not have baseline metrics needed to 
compare to the demonstration results. Without baseline metrics, NWS may 
be unable to determine whether the demonstration has degraded service 
or not.

Technology Transition

    Both agencies could face challenges in effectively transitioning 
the infrastructure and technologies to the new consolidated structure, 
if a proposal is accepted. In its proposal, NWS planned to move its 
operations from 20 en route centers to two sites within three years. 
However, to do so, the agencies will need to modify their aviation 
weather systems and develop a communications infrastructure. 
Specifically, NWS and FAA will need to modify or acquire systems to 
allow both current and new products for an expanded view of the 
country. Additionally, NWS will need to develop continuous two-way 
communications in lieu of having staff on-site at each en route center. 
NWS has recognized the infrastructure as a challenge, and plans to 
mitigate the risk through continuous dialogue with FAA. However, if 
interagency collaboration does not improve, attempting to coordinate 
the systems and technology of two agencies may prove difficult and 
further delay the schedule.

Implementation of Draft Recommendations Should Improve Interagency 
                    Approach to Aviation Weather

    In our draft report, we are making recommendations to the 
Secretaries of Commerce and Transportation to improve the aviation 
weather products and services provided at FAA's en route centers. 
Specifically, we are recommending that the Secretaries direct the NWS 
and FAA administrators, respectively, to improve their ability to 
measure improvements in the center weather service units by 
establishing and approving a set of performance measures for the Center 
Weather Service Units, and by immediately identifying the current level 
of performance for the five potential measures that could be identified 
under current operations (forecast accuracy, customer satisfaction, 
service delivery conformity, timeliness of on-demand services, and 
training completion) so that there will be a baseline from which to 
measure the impact of any proposed operational changes.
    In addition, we are recommending that the Secretaries direct the 
NWS and FAA administrators to address specific challenges by

        <bullet>  improving interagency collaboration by defining a 
        common outcome, establishing joint strategies to achieve the 
        outcome, and agreeing upon each agency's responsibilities;

        <bullet>  establishing and finalizing requirements for aviation 
        weather services at en route centers;

        <bullet>  ensuring that any proposed organizational changes are 
        aligned with NextGen initiatives by seeking a review by the 
        Joint Program Development Office responsible for developing the 
        NextGen vision; and

        <bullet>  before moving forward with any proposed operational 
        changes, address implementation challenges by developing a 
        feasible schedule that includes adequate time for stakeholder 
        involvement; undertaking a comprehensive demonstration to 
        ensure no services are degraded; and effectively transitioning 
        the infrastructure and technologies to the new consolidated 
        structure.

    In summary, for several years, FAA and NWS have explored ways to 
improve the operations of the center weather service units by 
consolidating operations and providing remote services. Meanwhile, the 
two agencies have to make a decision on the interagency agreement, 
which will expire at the end of September 2009. If FAA and NWS are to 
create a new interagency agreement that incorporates key dates within 
the proposal, decisions on the proposal will have to be made quickly.
    An important component of any effort to improve operations is a 
solid understanding of current performance. However, FAA and NWS are 
not working to identify the current level of performance in five 
measures that are applicable to current operations. Until the agencies 
have an understanding of the current level of performance, they will 
not be able to measure the success or failure of any changes to the 
center weather service unit operations. As a result, any changes to the 
current structure could degrade aviation operations and safety--and the 
agencies may not know it.
    If the agencies move forward with plans to restructure aviation 
weather services, they face significant challenges including a poor 
record of interagency collaboration, undocumented requirements, and a 
lack of assurance that this plan fits in the broader vision of the Next 
Generation Air Transportation System. Moreover, efforts to implement 
the restructuring will require a feasible schedule, a comprehensive 
demonstration, and a solid plan for technology transition. Until these 
challenges are addressed, the proposed restructuring of aviation 
weather services at en route centers has little chance of success.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
statement. I would be pleased to respond to any questions that you may 
have at this time.

GAO Staff Acknowledgments

    Key contributors to this testimony include Colleen Phillips, 
Assistant Director; Gerard Aflague; Kate Agatone; Neil Doherty; Rebecca 
Eyler; and Jessica Waselkow.

Attachment 1

                         Scope, and Methodology

    For the draft report on which this testimony is based, we 
determined the status of NWS's plans for restructuring the center 
weather service units by reviewing the existing interagency agreement, 
FAA's proposed requirements, and NWS's draft and final proposals for 
addressing FAA's requirements. We analyzed NWS's draft transition 
schedules, cost proposals, and evaluation plans. We also interviewed 
NWS and FAA officials to obtain clarifications on these plans.
    To evaluate the agencies' efforts to establish a baseline of the 
current performance provided by center weather service units, we 
reviewed documentation including FAA's performance standards, the 
current interagency agreement, NWS's restructuring proposals and 
Quality Assurance Surveillance Plan, and the agencies' plans for 
evaluating the centers. We compared the agencies' plans for creating a 
baseline of current performance with best practices for performance 
management by the Department of the Navy and General Services 
Administration.\15\ We also interviewed NWS and FAA officials involved 
in establishing a baseline of current performance provided by center 
weather service units.
---------------------------------------------------------------------------
    \15\ Department of the Navy, Office of the Chief Information 
Officer, Guide for Developing and Using Information Technology (IT) 
Performance Measurements (Washington, D.C.: Oct. 2001); General 
Services Administration, Office of Government-wide Policy, Performance-
Based Management Eight Steps To Develop and Use Information Technology 
Performance Measures Effectively, (Washington, D.C.: 1996).
---------------------------------------------------------------------------
    To evaluate challenges to restructuring the center weather service 
units, we reviewed agency documentation, including FAA's requirements 
document and NWS's proposals to restructure the center weather service 
units. We also reviewed planning documents for the Next Generation Air 
Transportation System. We compared these documents with best practices 
for system development and requirements management from the Capability 
Maturity Model Integration for Development; and with GAO's best 
practices in interagency collaboration and architecture planning.\16\ 
In addition, we interviewed NWS, FAA, and Joint Planning and 
Development Office officials regarding challenges to restructuring the 
center weather service units.
---------------------------------------------------------------------------
    \16\ Carnegie Mellon University Software Engineering Institute, 
Capability Maturity Model Integration for Development, Version 1.2 
(Pittsburgh, PA: August 2006); GAO, Results-Oriented Government: 
Practices That Can Help Enhance and Sustain Collaboration Among Federal 
Agencies, GAO-06-15 (Washington, D.C.: Oct. 21, 2005); and GAO, 
Enterprise Architecture: Leadership Remains Key to Establishing and 
Leveraging Architectures for Organizational Transformation, GAO-06-831 
(Washington, D.C.: Aug. 14, 2006).
---------------------------------------------------------------------------
    We performed our work at FAA and NWS headquarters offices, and 
FAA's Air Traffic Control System Command Center in the Washington, 
D.C., metropolitan area. We conducted this performance audit from 
August 2008 to July 2009, in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for findings and conclusions based on our audit objectives.

                     Biography for David A. Powner

Experience

Twenty years' experience in information technology issues in both 
public and private sectors.

Education

Business Administration, University of Denver

Senior Executive Fellows Program, Harvard University, John F. Kennedy 
        School of Government

Director, IT Management Issues, U.S. Government Accountability Office

    Dave is currently responsible for a large segment of GAO's 
information technology (IT) work, including systems development, IT 
investment management, health IT, and cyber critical infrastructure 
protection reviews.
    In the private sector, Dave has held several executive-level 
positions in the telecommunications industry, including overseeing IT 
and financial internal audits, and software development associated with 
digital subscriber lines (DSL).
    At GAO, Dave has led teams reviewing major IT modernization efforts 
at Cheyenne Mountain Air Force Station, the National Weather Service, 
the Federal Aviation Administration, and the Internal Revenue Service. 
These reviews covered many information technology areas including 
software development maturity, information security, and enterprise 
architecture.

    Chairman Miller. Thank you, Mr. Powner.
    Dr. Hayes for five minutes.

      STATEMENT OF DR. JOHN L. ``JACK'' HAYES, ASSISTANT 
ADMINISTRATOR FOR WEATHER SERVICES; DIRECTOR, NATIONAL WEATHER 
SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Hayes. Thank you, Mr. Chairman, and Mr. Broun and other 
Members of the Committee, for the opportunity to testify on the 
National Weather Service provision of aviation weather 
information to the FAA. I am Jack Hayes, the Assistant 
Administrator for Weather Services and the Director of the 
National Weather Service. The National Weather Service is a 
line office within the National Oceanic and Atmospheric 
Administration.
    The Weather Service plays a critical role in providing 
weather information to the FAA in support of their mission for 
safe and efficient operation of the National Airspace System. 
We provide warnings, forecasts, meteorological advice, and 
consultation throughout all phases of flight, including pre-
flight planning and operations. These services come from many 
National Weather Service offices, including our weather 
forecast offices, the Alaskan Aviation Weather Unit, the 
Volcanic Ash Advisory Centers, the Aviation Weather Center, and 
Center Weather Service Units, CWSUs for short.
    We are committed to providing quality aviation weather 
services. Let me focus on CWSUs. Meteorologists at our CWSUs 
provide weather advisories, forecasts, and advice to air 
traffic management. The CWSUs are located at each of the 21 FAA 
air route traffic control centers. CWSUs operate 16 hours per 
day, typically between 5:00 a.m. and 9:00 p.m. local time, 
seven days a week when air traffic is at its peak.
    Since the last hearing in 2008, FAA and the National 
Weather Service have worked to refine service requirements. The 
Weather Service delivered a revised response to FAA in June of 
this year. Our response provides--proposes, rather, to provide 
CWSU support from two centers in the lower 48 states. As part 
of our approach, we plan to conduct a demonstration validation 
or dem/val, to objectively test and validate the viability of 
this solution.
    A critical component of our response, and prerequisite 
before any decision is made to change the operational structure 
of CWSU support, is to demonstrate the capability of meeting 
FAA requirements from two centers with no degradation of 
aviation weather services and no impact to safety. If the 
demonstration is successful, consolidation of 20 CWSUs in the 
lower 48 states into two centers is proposed. Each center would 
serve as an operational backup for the other.
    New weather products and services, including the provision 
of 24 by seven or 24 hours a day, seven days a week, weather 
support services will be introduced to meet FAA requirements in 
support of the National Air Space System. We will work 
collaboratively with the FAA to plan, conduct, and evaluate the 
dem/val to ensure that the proposed structure does not degrade 
aviation weather services.
    The National Academy of Sciences has agreed to provide 
unbiased expertise to oversee and evaluate the results of the 
dem/val. The FAA has stated that face-to-face services and 
briefings are no longer required. We believe new technology can 
be leveraged to allow remote service and improved consistency. 
Our response provides for remote briefing services to FAA 
Terminal Radar Approach Control and control tower personnel, 
which are currently not co-located with our CWSUs but have 
routine interactions with our forecasters.
    The consolidated CWSU structure would reduce the staff from 
84 to 50. I am committed to ensuring that any affected CWSU 
employee who wants a job with the National Weather Service will 
have one. We have reviewed our staffing model and are confident 
we can absorb the 34 positions through normal attrition.
    Our 42-month schedule for transition to a consolidated CWSU 
structure, including a planning phase, a nine-month period for 
dem/val, followed by transition to the new structure. We have 
been working with the FAA to define future CWSU services. In 
addition, over the past 18 months we have been working to 
improve the consistency and quality of existing CWSU aviation 
weather services.
    Our joint CWSU site evaluations and ongoing discussion with 
the FAA are helping us to establish and refine baseline 
performance measures by this fall. These measures will provide 
the basis for evaluating and continuing to improve our 
services.
    NOAA recognizes the Next Generation Air Transportation 
System, or NextGen, will result in a system-wide air traffic 
management transformation. This transformation will affect how 
we collect, manage, and disseminate weather-related information 
and how the FAA makes weather-related decisions. We also 
recognize the need for close coordination with the federal 
weather community to meet NextGen weather support needs.
    NOAA is working with the Joint Planning and Development 
Office to fully integrate NOAA's weather information and 
service improvements into the NextGen development. This will 
enable us to meet requirements for the transformation and 
ensure NOAA's contributions are compatible with NextGen 
decision support, dissemination, display systems, including 
inter-operability of any revised CWSU support structure.
    Last week we received the GAO's draft report, ``Review of 
Aviation Restructuring.'' We are reviewing the draft report and 
developing our action plan. Moreover, we believe our June, 
2009, response to the FAA for CWSU services addresses some of 
the key recommendations in the draft report, including a dem/
val overseen by the National Academy of Sciences to ensure 
involvement of stakeholders in an unbiased evaluation.
    Also highlighted in our response to the FAA is the 
importance of aligning organizational changes with NextGen 
initiatives. We agree with the need to establish baseline 
performance measures as stated by the GAO, and we are working 
to--now collecting data on four of the five standards 
originally developed by the FAA and the National Weather 
Service to establish that baseline.
    We will continue to work together to review assessment and 
measure methods for the fifth proposed standard (forecast 
accuracy). These performance metrics are critical data points 
to evaluate the dem/val.
    The National Weather Service reaffirms its commitment to 
providing critical weather support that assists the FAA in 
managing the National Air Space System. The National Air Space 
System must remain safe, efficient, and cost-effective for the 
people of this country.
    Thank you for the opportunity to appear before you. I am 
happy to answer any questions you may have.
    [The prepared statement of Dr. Hayes follows:]
              Prepared Statement of John L. ``Jack'' Hayes
    Thank you, Mr. Chairman and Members of the Subcommittee, for this 
opportunity to testify on the National Weather Service's provision of 
aviation weather information to the Federal Aviation Administration 
(FAA). I am Jack Hayes, Assistant Administrator for Weather Services 
and the Director of the National Weather Service (NWS). The Weather 
Service is a line office of the National Oceanic and Atmospheric 
Administration (NOAA), within the Department of Commerce (DOC).

Background

    The NWS has an extensive infrastructure supporting the development 
of its products and services. The NWS issues more than a trillion 
forecasts, and 10,000 warnings annually for protection of life and 
property and enhancement of the national economy. Every day we process 
1.7 billion surface and upper air observations from across the country 
and around the globe. These data are assimilated into complex computer 
models providing the backbone of weather information for all--
government and private weather forecasters both nationally and 
internationally. The aviation industry uses this vast array of weather 
information for flight planning and safety.
    The NWS has a long history of providing weather support for 
aviation dating back to 1914. The Air Commerce Act of 1926 (44 Stat. 
568), added specific responsibility for providing weather services to 
civil aviation. Today, NWS aviation services are focused on meeting the 
needs of the Nation in coordination with our partner, FAA. In 1994, 
Public Law 103-272 (49 U.S.C.  44720(a) ) directed the Secretary of 
Commerce to provide weather support for aviation and to give complete 
consideration to the recommendations of the FAA Administrator in doing 
so:

         ``The Administrator of the Federal Aviation Administration 
        shall make recommendations to the Secretary of Commerce on 
        providing meteorological services necessary for the safe and 
        efficient movement of aircraft in air commerce. In providing 
        the services, the Secretary shall cooperate with the 
        Administrator and give complete consideration to those 
        recommendations.''

    Today, forecasters across the Nation comprise the aviation weather 
forecast team, including meteorologists at 122 local Weather Forecast 
Offices, 21 Center Weather Service Units (CWSUs), the Alaska Aviation 
Weather Unit in Anchorage, Alaska; and the Aviation Weather Center in 
Kansas City, Missouri.
    The Aviation Weather Center operates 24 hours a day, seven days per 
week, to provide aviation warnings and forecasts of hazardous flight 
conditions at all levels within domestic and international air space 
including turbulence, icing, and convection forecasts. The 
Collaborative Convective Forecast Product, a graphical representation 
of expected convective occurrence at two-, four-, and six-hours, is 
produced by the Aviation Weather Center after collaboration with 
Meteorological Service of Canada, CWSUs, and meteorological offices of 
airlines and service providers.
    On the local scale, the Weather Forecast Offices provide terminal 
area forecasts for approximately 625 locations every six hours, with 
additional updates as conditions change. These forecasts consist of the 
expected weather at a given airport or terminal area and are used 
primarily by commercial and general aviation pilots. The Alaska 
Aviation Weather Unit provides specialized products for the unique 
general aviation community and severe weather conditions in Alaska, and 
also includes the Anchorage Volcanic Ash Advisory Center, one of nine 
such advisory centers worldwide.

Center Weather Service Unit Support to the FAA

    My testimony today will focus on services provided in support of 
the FAA by forecasters at our 21 CWSUs. CWSUs were established in 1978 
in response to National Transportation Safety Board recommendation A-
77-68 resulting from a serious weather-related accident over New Hope, 
Georgia, which caused numerous fatalities. This recommendation called 
for the FAA to, ``Formulate rules and procedures for the timely 
dissemination by air traffic controllers of all available severe 
weather information to inbound and outbound flights in the terminal 
areas.'' Based on this recommendation, FAA, with the assistance of NWS, 
formed the CWSUs.
    NWS forecasters at CWSUs provide weather advisories and forecasts 
to the FAA, and advise and consult with air traffic controllers, which 
helps to maintain a safe and efficient national airspace. The CWSUs are 
located at each of the 21 FAA Air Route Traffic Control Centers 
(ARTCC). CWSU meteorologists provide weather advisories valid for two 
hours or less describing areas of hazardous weather in progress or 
forecast to develop; forecasts for up to 12 hours describing areas of 
weather that may impact air traffic operations; twice daily face-to-
face briefings; and on-demand consultations to ARTCC traffic managers. 
CWSU meteorologists also provide remote briefings telephonically, as 
needed, to FAA Terminal Radar Approach Control and control tower 
personnel, and they train controllers on the interpretation of weather 
information.
    Under an interagency agreement, the FAA provides basic equipment, 
communications, space, and supplies for the CWSUs, and currently 
reimburses the NWS about $12 million per year. Based on local 
requirements, CWSUs operate 16 hours per day, typically between 5:00 
a.m. and 9:30 p.m. local time, seven days a week, when air traffic is 
at its peak. If weather conditions pose a threat to an ARTCC's area of 
responsibility, our CWSU forecasters may work additional hours to 
support the ARTCCs.

Recent History of NWS and FAA Interactions to Improve CWSU Services

    In 2005, the FAA provided NWS with feedback that service 
improvements from CWSUs were needed. In 2006, NWS proposed changes to 
CWSU services, which were not accepted by the FAA. The FAA determined 
the requirements for CWSU services were not well defined and needed to 
be solidified before any changes to CWSU services were made.
    In January 2008, FAA provided a requirements document to the NWS 
for CWSU services. The requirements included an increase in coverage to 
24 hours a day service seven days per week, improved product and 
service consistency, and a national situational awareness for weather. 
The FAA requested the NWS provide service solutions for three CWSU 
business models: a single site model; a regional model (more than one 
CWSU, but less than the current 21); and a model reflecting the current 
structure of 21 CWSUs. The NWS submitted its initial response to FAA in 
May 2008.
    In September 2008, FAA determined that although there were positive 
elements in each of the three business models, none of models were 
acceptable and all were too costly. In their responding letter to NWS, 
FAA stated they did not require direct, face-to-face contact at each of 
their ARTCCs and they would support an approach utilizing two CWSUs. 
FAA agreed to work with NWS to further refine the CWSU requirements, 
with a final response from the NWS expected by the end of 2008. In 
October 2008, FAA and NWS worked together to revise the CWSU 
requirements to reflect the FAA's request to reduce costs and 
consolidate 20 CWSUs in the lower 48 states into two centers, leaving 
the Alaska CWSU as it is. The NWS prepared an updated response by 
December 2008, but did not provide it to FAA until June 2009 which 
allowed for review and consideration by the new Administration.

Overview of the NWS Response to the FAA for CWSU Services

    The NWS's revised response proposes to meet FAA requirements by 
developing the capability to provide CWSU support from two centers in 
the lower 48 states. The response calls for development and 
demonstration test of a prototype. As a point of emphasis, a critical 
component of our response, and a prerequisite before any decision is 
made to change the operational structure of NWS CWSU support, is to 
demonstrate the capability of meeting FAA requirements from two centers 
with no degradation of aviation weather services and, at a minimum, no 
impact to safety. If the demonstration is successful, the response 
plans for a consolidation of 20 CWSUs in the lower 48 states into two 
centers: one in Kansas City, Missouri, co-located with the Aviation 
Weather Center; and the other co-located at the National Centers for 
Environmental Prediction in the Washington, D.C. area Each of these 
centers would serve as an operational backup for the other, should 
those services be necessary. The response also introduces a suite of 
new national forecast guidance products to emphasize consistency across 
the National Airspace System to meet the revised FAA requirements. We 
and the FAA believe this will enhance aviation safety.
    We will work collaboratively with the FAA to plan, run, and 
evaluate a prototype, referred to as a demonstration/validation, to 
ensure the proposed structure for aviation services does not degrade 
aviation weather services. The Board on Atmospheric Sciences and 
Climate (BASC) of the National Academy of Sciences has agreed to 
oversee and evaluate the results of the demonstration/validation. The 
NWS believes this outside, unbiased group of experts is critical for 
determining the feasibility and prudence of moving to any revised CWSU 
structure while ensuring no degradation of service.
    The FAA has stated face-to-face services and briefings from NWS 
forecasters at the ARTCCs are no longer required. The NWS believes new 
technology can be leveraged to allow remote service and improve 
consistency. Our response also provides for remote briefing services to 
FAA Terminal Radar Approach Control and control tower personnel, which 
are currently not co-located with CWSUs but have routine interactions 
with NWS forecasters. However, a rigorous demonstration of any new 
technology, products, and services must be conducted and independently 
evaluated before we modify our current structure. We will not proceed 
with any change that would jeopardize safety.
    The consolidated CWSU structure would reduce NWS staff from 84 to 
50. Any affected NWS CWSU employee who wishes to continue to work for 
the NWS will have the option of doing so. We have reviewed our staffing 
model and are confident we can absorb the 34 positions through normal 
attrition.
    Our 42-month schedule for transition to a consolidated CWSU 
structure includes a planning phase, a nine-month period for the 
demonstration/validation, followed by transition to the new structure 
provided the demonstration/validation demonstrates no degradation of 
aviation weather services and aviation safety is enhanced. During the 
nine-month demonstration/validation period, current weather support 
will remain unchanged.

Ongoing Improvements to CWSU Services

    While working with FAA to define future CWSU services, over the 
past 18 months we have been working to improve the consistency and 
quality of existing CWSU aviation weather services. Improvements to our 
aviation weather services include improved weather information with new 
graphic capabilities, a more concentrated focus on National Airspace 
System weather impacts, and improved consistency between forecasts 
across multiple ARTCCs. We also are improving our customer service by 
increasing CWSU meteorologists' understanding of air traffic flow 
management and FAA operations, initiating proactive communication to 
controllers, towers, and others in air traffic management, and 
improving access and usefulness of CWSUs Internet presence. We have 
implemented a methodology to measure weather impact on air traffic 
across 35 major airports, customized forecast criteria to specific 
airports to meet specific ARTCC needs, and are conducting CWSU site 
reviews. These site visits are conducted jointly by NWS and FAA 
management. Thirteen site reviews are complete and eight more will be 
done by September 2009. Taken together, we believe these are 
significant steps that have already improved weather services to our 
ARTCC partners.

Weather Information in the Next Generation Air Transportation System

    The Next Generation Air Transportation System (NextGen) is intended 
to meet projected 2025 U.S. air transportation needs--significant 
growth in air traffic is projected. Given that weather is a factor in 
70 percent of air traffic delays, NOAA is actively involved in NextGen 
through its participation on the Joint Planning and Development Office 
(JPDO) Board and in providing leadership for the JPDO Weather Working 
Group.
    NOAA recognizes the NextGen will result in a system-wide air 
traffic management transformation that will affect the manner by which 
weather-related information is collected, managed, disseminated, and 
used in decision-making. The robust integration of weather data 
envisioned by the FAA will improve the efficiency and effectiveness of 
airspace use and airport throughput, and is expected to reduce the 
impacts to our nation's travelers and businesses when weather is a 
factor. To that end, NOAA is working with FAA to fully integrate NOAA's 
weather information and services improvements into NextGen development 
to meet requirements for the transformation and ensure NOAA's 
contributions are compatible with NextGen decision support, 
dissemination, and display systems. The NWS response to restructure 
CWSU support provides key links to NextGen and will ensure inter-
operability of any revised CWSU support structure during the NextGen 
era. NWS planners will work closely with the FAA during any CWSU 
restructure to ensure a linkage into the NextGen program.
    The vision of NextGen requires NOAA to develop a four dimensional 
grid of environmental data (referred to as the ``4D Weather Cube'') 
with fine scale forecasts of wind, temperature, cloud heights, 
visibility and thunderstorms. There are scientific challenges we must 
address to meet this vision. For example, we are developing the 
capability to forecast the development of a thunderstorm within airport 
airspace 30 minutes before it starts. Thunderstorms are a significant 
cause of air traffic delays. By forecasting the beginning of 
thunderstorms, we can provide greater advance notice, and air traffic 
managers can change aircraft routes and headings before the threat 
appears, which will mitigate the impact through the system, resulting 
in less impact to passengers and businesses. Forecasting the beginning 
of thunderstorms is a difficult scientific challenge, requiring greater 
sensing of the atmosphere through satellites, radars, and other 
methods, as well as higher resolution forecast models. NOAA is focused 
on meeting the scientific challenges associated with developing earlier 
thunderstorm forecasts, as well as improving forecasts for cloud 
heights and visibility, two other weather-related threats that impact 
aviation operations.
    Another key component of the 4D Weather Cube will be probabilistic 
information that will help FAA decision-makers make more informed, 
risk-based decisions when appropriate. The probabilistic 4D Weather 
Cube will support both tactical decision-making (radar, one- to six-
hour thunderstorm forecasts, observations, emergency support) and 
strategic decision-making (six to 30-hour forecasts of key parameters 
including icing, turbulence, convection, and winter weather ground 
support forecasts). The vision of the 4D Weather Cube is to support 
aircraft specific, runway specific, trajectory specific information as 
early as possible in the planning phase. The NWS vision is to issue 
``Warnings-on-Forecast'' in four dimensions when probabilities of 
certain hazards exceed user agreed upon probabilistic thresholds within 
hazard areas. The key take-away for operations is to avoid the hazard 
areas.
    Weather in the data cube will contain a constantly refreshed source 
of critical information, keeping the eyes of all decision-makers on 
target. All of the data will be network-enabled, using common standards 
and architectures. Network-enabled information access will foster a 
private-public partnership to keep the National Airspace System as 
efficient and safe as possible. Weather information in digital forms 
can ``speak'' from machine to machine, supporting the NextGen vision of 
integrating current and future sources of weather data. NWS efforts to 
build the 4D Weather Cube will include working closely with partners to 
ensure a fully unidirectional approach to National Airspace System 
support.
    Finally, the NWS forecaster will remain a key component of the 
future forecast system supporting the FAA. The NWS forecaster will 
continue to assist FAA traffic managers and decision-makers, alerting 
them of rapidly changing conditions and the impacts on operations and 
safety.
    The vision described above and the service improvements envisioned 
are still under development. Today, aviation products are generally in 
textual and graphic formats and their development is very labor 
intensive. Over the next five years, aviation elements will become 
available in digital as well as textual and graphical formats as we 
move forward towards the NextGen era. Furthermore, advances in the 
automation and rapidly updated (hourly) forecast routines of 
convective, low ceiling and visibility, icing, turbulence and wind in a 
digital environment will enable the NWS to focus our forecasters on 
improving decision support services to the FAA by allowing the 
forecaster to focus not only on the weather, but how the weather will 
potentially impact aircraft operations. These science and technology 
enablers, together with attention to risk management, will evolve CWSU 
products and services over the next five years and into the NextGen 
era. The anticipated advances in the science and technology 
underpinning aviation weather support will enable evolution of CWSU 
products and services to make them more effective.

GAO Review of Aviation Weather Restructuring

    Late last week we received the Government Accounting Office (GAO) 
Draft Report: ``Review of Aviation Weather Restructuring.'' We are 
reviewing the draft and will develop our action plan once the final 
report is completed. We believe our response to the FAA for CWSU 
services addresses some of the key recommendations in the draft GAO 
report. For example, our response to FAA includes, as the centerpiece, 
a nine-month demonstration/validation. The planning, execution, and 
evaluation of this demonstration/validation will be overseen by the 
BASC to ensure involvement of stakeholders and an unbiased review to 
ensure no degradation of aviation weather services. The current 21 
CWSUs will continue to operate during that period. Our response to FAA 
also highlights the importance of aligning organizational changes with 
NextGen initiatives. We have been working with our representative to 
the NextGen JPDO to ensure the NWS connection to NextGen. In addition, 
I serve on the JPDO Executive Weather Working Group, where I highlight 
important NextGen weather issues for discussion with other members of 
the board including representatives from the Department of Defense, 
FAA, and the National Aeronautics and Space Administration. Consistent 
with the GAO report, the NWS agrees there must be a linkage between the 
CWSUs and NextGen. I believe we have taken the necessary first steps to 
ensure this, and we will continue to incorporate NextGen concepts into 
our CWSU plans.
    We also agree with the need to establish baseline performance 
measures, as stated by the GAO. NWS is now collecting data on four of 
the five standards developed by FAA and proposed by NWS, to establish a 
baseline. Methods by which to measure the fifth proposed standard 
(forecast accuracy) will be reviewed by FAA and NWS. These measures are 
critical data points to allow the BASC to evaluate the demonstration/
validation and to determine its success. The FAA also recommended that 
NWS identify in our proposal additional performance measures that 
involve proposed products and services. To address this, NWS has 
identified eight additional performance measures which are listed in 
our response to FAA.

Conclusion

    Much has changed since the CWSUs were first established in 1978. 
The science and our understanding and ability to observe, analyze, and 
predict the weather has improved tremendously; new technology to 
support our products and services continues to evolve. We believe a 
disciplined test of new service alternatives incorporating the best and 
newest science and technology has the potential to improve air traffic 
management and provide the capabilities needed in NextGen. We believe 
new 21st century technologies provide a viable option for remote 
weather support. We will support a change of the current operational 
model after a successful demonstration/validation shows no there would 
be no degradation in current services. The NWS mission is to provide 
weather forecasts and warnings for the protection of lives and property 
and enhancement of the national economy. We will not take any steps 
that would jeopardize our ability to deliver life-saving weather 
information. It is our goal to help the FAA ensure the National 
Airspace System remains safe, efficient, and cost effective for the 
people of this country.

                  Biography for John L. ``Jack'' Hayes
    John L. ``Jack'' Hayes is the National Oceanic and Atmospheric 
Administration (NOAA) Assistant Administrator for Weather Services and 
National Weather Service (NWS) Director. In this role, Dr. Hayes is 
responsible for an integrated weather services program, supporting the 
delivery of a variety of weather, water, and climate services to 
government, industry, and the general public, including the preparation 
and delivery of weather warnings and predictions, and the exchange of 
data products and forecasts with international organizations.
    Dr. Hayes returned to the NWS in 2007 after serving as the Director 
of the World Weather Watch Department at the World Meteorological 
Organization (WMO), a specialized agency of the United Nations located 
in Geneva, Switzerland. In that position, he was responsible for global 
weather observing, weather data exchange telecommunications, and 
weather data processing and forecasting systems.
    Before joining the WMO, Dr. Hayes served in several senior 
executive positions at NOAA. As the Deputy Assistant Administrator for 
NOAA Research, he was responsible for the management of research 
programs. As Deputy Assistant Administrator of the National Ocean 
Service (NOS), he was the Chief Operating Officer dealing with a 
multitude of ocean and coastal challenges, including the NOS response 
to the Hurricane Katrina disaster in August 2005. As Director of the 
Office of Science and Technology for the NWS, Dr. Hayes had oversight 
of the infusion of new science and technology essential to weather 
service operations.
    Dr. Hayes was also an executive in the private sector and the 
military. He was General Manager of the Automated Weather Interactive 
Processing System (AWIPS) program at Litton-PRC from 1998 through 2000. 
AWIPS is the interactive computer system used by all weather service 
forecasters. From 1970 through 1998, Dr. Hayes spent a career in the 
United States Air Force. He held a variety of positions, culminating 
his career as the Commander of the Air Force Weather Agency in the rank 
of Colonel.
    Dr. Hayes received both his Ph.D. and Master of Science degrees in 
meteorology from the Naval Post Graduate School in Monterey, 
California. A Fellow in the American Meteorological Society, he also 
graduated from Bowling Green State University, with a Bachelor's degree 
in mathematics.
    Dr. Hayes has been married to his wife, Sharon, for over 37 years 
and has three grown children.

    Chairman Miller. Thank you, Dr. Hayes.
    Mr. Day for five minutes.

    STATEMENT OF MR. RICHARD DAY, SENIOR VICE PRESIDENT FOR 
    OPERATIONS, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Mr. Day. Chairman Miller, Ranking Member Broun, Members of 
the Subcommittee, thank you for inviting me here to testify 
about the future of Center Weather Service Units.
    Our job at the FAA is to oversee a safe and efficient 
National Airspace System. Reliable aviation weather forecasting 
is an integral part of that, and the National Weather Service's 
support has been a key component of that as well.
    Our operations data tells us that 70 percent of air traffic 
delays are caused by weather. To address this problem we are 
collaborating with the National Weather Service on aviation 
weather forecasting and how to improve that forecasting to 
promote safety and reduce weather delays.
    In our constant quest to improve aviation safety and 
efficiency, we are looking to capitalize on technological 
improvements that have emerged over the last 30 years since 
CWSU operations began. Technological improvements have changed 
the way in which weather information is generated, 
disseminated, and used.
    In addition, we have also asked the National Weather 
Service to examine three different service methods. First, 
using the existing CWSU configuration, second, using a reduced 
number of CWSUs, and third, using one centralized facility to 
provide improved, consistent, and continuous weather service to 
centers 24 hours per day, seven days per week, versus the 
current 16 hours per day, seven hours--seven days per week 
service presently provided.
    Since the Committee's last hearing on CWSUs, the National 
Weather Service responded to our request with three 
alternatives. Each of these had some innovative ways to meet 
our requirements. However, none were accepted because the costs 
were too high for each alternative compared to the cost of the 
program.
    Last year the FAA advised the National Weather Service that 
we preferred the single weather center solution but recognized 
the need for backup and requested the National Weather Service 
refine its proposal. We were served--we received the National 
Weather Service revised proposal last month and expect to 
complete our assessment of the proposal in early August.
    Although our assessment of the National Weather Service 
proposal is not complete, with a two weather center approach, 
we see an opportunity to improve aviation weather forecasting 
services in the near-term. We expect this approach to provide 
finer resolution and more consistent and accurate forecasts 
that will improve the safety and efficiency of traffic flows 
through the National Airspace System.
    This consolidation--or, excuse me, this consolidated CWSU 
model would allow meteorologists to dynamically allocate 
resources to areas with active weather conditions having the 
most impact on aviation operations. We understand that there 
may be some concern about providing weather services remotely. 
I want to assure you that we have considerable experience with 
remote weather briefings. Today CWSUs provide remote support to 
Terminal Radar Approach Controls and select towers, just as 
Flight Service Stations provide remote weather briefings to 
pilots.
    In addition, providing weather services using this model is 
consistent with centralized weather operations used 
internationally, by the Department of Defense, and by airlines. 
And CWSUs will not be the only source of aviation weather 
information for FAA's air traffic operations. The National 
Weather Service would continue to have approximately 130 
meteorologists providing meteorological watch and issuing 
forecasts for parts of the National Airspace System from its 
weather forecast offices and the Aviation Weather Center 
providing both terminal and end-route forecasts.
    In addition to the benefits we expect to see in the near-
term, a two-weather center approach will also help aviation 
weather services towards the FAA's future needs envisioned in 
the Next Generation Air Traffic System or NextGen. One key 
concept of NextGen is a common operational picture of weather 
information for all air traffic management decisions. This 
concept is already being put into practice through the 
Collaborative Convective Forecast Product or CCFP. The CCFP 
provides a common operational picture of convective weather on 
which they build the air traffic management plan.
    FAA and National Airspace System stakeholders now rely on 
the CCFP as the primary forecast product for NASS-wide 
operations planning during the convective season. Consistent 
with NextGen, we need a common operational picture of all 
weather elements that impact air traffic.
    In conclusion, we are very hopeful about the benefits of 
the National Weather Service proposal. However, I want to 
assure the Committee that our assessment of the National 
Weather Service proposal is not the final consideration prior 
to implementation. Let me be clear. We will not change the 
current configuration until a demonstration and validation show 
that we are able to effectively disseminate the most timely and 
accurate weather forecasting for the safe operation of flights 
in our system.
    This concludes my remarks, and I look forward to your 
questions.
    [The prepared statement of Mr. Day follows:]
                   Prepared Statement of Richard Day

Chairman Miller, Ranking Member Broun, Members of the Subcommittee:

    Thank you for inviting me here to testify about the status of 
Center Weather Service Units (CWSU). As this is my first opportunity to 
testify before this subcommittee, I would like to take just a moment to 
introduce myself. My name is Rick Day, and I am the Senior Vice 
President for Operations for the Federal Aviation Administration's 
(FAA) Air Traffic Organization (ATO). As Senior Vice President for 
Operations, I oversee the safe and efficient delivery of air traffic 
services provided by the FAA. My career with the FAA began 35 years ago 
as an air traffic controller at the Cleveland Air Route Traffic Control 
Center. I have first hand experience relying on CWSU forecasts so it is 
especially fitting that in my first appearance before you I will 
testify about the CWSUs and their future.
    The FAA has had a longstanding, productive relationship with the 
National Oceanic and Atmospheric Administration's (NOAA) National 
Weather Service (NWS). We want to continue to this relationship with a 
renewed focus of improved aviation weather forecasting.
    A little history of our working relationship may be helpful. 
Aviation weather forecasting services have always been integral to safe 
and efficient operations within the National Airspace System (NAS) and 
support from the NWS has been key. The formal arrangement by which the 
NWS now provides aviation weather services to the Air Route Traffic 
Control Centers (ARTCC)\1\ originated with the NTSB recommendation 
issued on October 28, 1977, following its investigation of the crash of 
Southern Airways Flight 242. The NTSB recommended that FAA develop 
rules and procedures for the timely dissemination by air traffic 
controllers of all available severe weather information to inbound and 
outbound flight crews in the terminal area. To address this 
recommendation, the FAA entered into an Interagency Agreement with the 
NWS, to create CWSUs at each FAA ARTCC.
---------------------------------------------------------------------------
    \1\ ARTCCs provide air traffic control services to aircraft 
operating on instrument flight rule (IFR) flight plans within 
controlled airspace and principally during the en route phase of 
flight. When equipment capabilities and controller workload permit, 
certain advisory/assistance services may be provided to visual flight 
rule (VFR) aircraft.
---------------------------------------------------------------------------
    Today, CWSUs are located at each of the FAA's 21 ARTCCs throughout 
the United States. They are staffed by 84 NWS meteorologists, 16 hours 
a day, seven days a week. Typically, the CWSU forecaster on duty works 
with the ARTCC Traffic Management Unit (TMU), providing two scheduled 
weather briefings and updates throughout the day. The CWSU forecast is 
used in the development of the operational plan for air traffic, 
including runway configurations and routing traffic around significant 
weather.
    The original Interagency Agreement with the NWS that established 
the CWSUs has been renewed a number of times since it was first entered 
into in 1978. The current agreement will expire in September of this 
year but we expect to execute the agreement's one-year extension option 
to continue the existing CWSU operations through September 2010.
    Over the last several years, the FAA has been exploring 
opportunities to improve safety and efficiency within the NAS and 
capitalize on technological improvements that have emerged over the 
last 30 years since CWSU operation began. Technological improvements 
have changed the way in which weather information is generated, 
disseminated and used. In addition to the change in technology, we 
found that the CWSUs were not providing the same level of services at 
all of its locations, and the services and forecasts were not 
standardized across the 21 locations. There was also little 
collaboration or communication between the different CWSUs. In 
addition, neither the FAA nor the NWS had a formal quality assurance 
program for CWSU products and services. To this end, in 2005, the FAA 
asked the NWS to examine different service methods to provide improved, 
consistent and continuous (24 hours per day, seven days per week) 
weather support to ARTCCs. In response to this request, the NWS 
submitted a restructuring proposal in October 2006. In April 2007, the 
FAA declined this proposal because we were in the process of an 
internal requirements review. We completed that review in late 2007.
    Following this review, we refined our requirements for services 
provided by the CWSUs because our existing requirements were too broad 
to ensure the efficiency and cost effectiveness of the services. Also, 
as GAO found, FAA did not have a system in place to gather information 
about the effect of forecasts on delays and diversions in the NAS.
    In December 2007, the FAA asked NWS to provide a new proposal based 
on more narrowly tailored requirements for the future weather 
forecasting needs and the need for performance evaluation. Our 
requirements included 24-hour, seven-days-a-week staffing, standardized 
services to promote consistency in service delivery across the NAS as 
well as NAS-wide monitoring and a new Terminal Approach Control 
(TRACON) forecast that provided higher resolution information for 10 of 
our busiest TRACONs. The FAA also asked that NWS outline three 
different service methods to meet these requirements using: (1) the 
existing CWSU configuration at 21 ARTCCs; (2) a reduced number of 
CWSUs; and (3) one centralized weather facility. NWS responded with 
three proposals, each of which had some innovative ways to meet our 
requirements, however we did not accept any of them because the costs 
were too high for each alternative compared to the current cost of the 
program.
    In September 2008, the FAA advised the NWS that we preferred the 
single weather center solution but recognized the need for back up and 
requested the NWS refine their proposal. Safety and efficiency have 
always been and will continue to be the driving forces behind any 
improvements to the CWSU service. We received the NWS revised proposal 
last month. Currently, the FAA has a team assessing the proposal and we 
expect to have the assessment completed in early August.
    Although our assessment of the NWS proposal is not complete, with a 
two weather center approach, we see an opportunity to improve aviation 
weather forecasting services in the near-term. The agency expects the 
two center approach to provide finer resolution and more consistent and 
accurate forecasts that will improve the safety and efficiency of 
traffic flow through the National Airspace System 24 hours a day versus 
the 16 hours currently covered. This consolidated CWSU model would also 
allow meteorologists monitoring the NAS to dynamically allocate 
resources to areas with ``active'' weather conditions, having the most 
impact on aviation operations.
    We understand that there may be some concern about providing 
weather services ``remotely.'' We think this concern is unfounded 
because we have considerable experience with remote weather briefings. 
Today, CWSUs provide remote support to TRACONS and select towers just 
as Flight Service Stations provide remote weather briefings to pilots. 
In addition, providing weather services using this model is consistent 
with centralized weather operations used by NavCanada, Eurocontrol, and 
the U.S. Department of Defense as well as the airlines.
    Further, CWSUs will not be the only source of aviation weather 
information for FAA's air traffic operations. NWS would continue to 
have, at any one time, approximately 130 meteorologists providing 
meteorological watch and issuing forecasts for parts of the NAS from 
its weather forecast offices and the Aviation Weather Center providing 
terminal and en route forecasts.
    The current requirements for the CWSUs to provide ``consistent'' 
information will also help move aviation weather services towards the 
FAA's future needs envisioned for the Next Generation Air 
Transportation System or NextGen. One key concept of NextGen is a 
common operational picture of weather information for all air traffic 
management decisions. This concept is already being put into practice 
through the Collaborative Convective Forecast Product (CCFP). Several 
years ago we asked the NWS to develop and provide the CCFP based on 
user feedback that there were several convective forecasts available, 
often providing different answers. FAA needed a ``common operational 
picture'' of convective weather on which to build the air traffic 
management plan. The CCFP provides this common forecast of convective 
weather. It is developed from collaboration among meteorologists from 
CWSUs, the Aviation Weather Center, Meteorological Service of Canada, 
and the airlines. FAA and NAS stakeholders now rely on the CCFP as the 
primary forecast product for NAS-wide operations planning, during the 
convective season. Consistent with the NextGen Concept of Operations, 
we need a common operational picture of all weather elements that 
impact air traffic.
    In the time since the GAO's January 2008 evaluation of weather 
services provided by CWSUs, we have taken steps to address GAO's 
recommendations for establishing standards by which to evaluate CWSU 
performance. We have already established standards for participation in 
the development of the Convective Forecast, when convective weather is 
expected to occur within that specific ARTCC domain; consistency of 
CWSU product formats, information content, and procedures for issuance, 
across all CWSUs; and, provision of on site or back up daily services 
16 hours per day, seven days per week. We began baselining these 
performance standards with the NWS during site evaluations we started 
this year. We have also established a standard for accuracy of 
forecasts used in decisions for traffic management initiatives. The 
metric that results from this is being developed jointly by FAA and 
NWS. This metric will take a little more time to refine, but we believe 
that building on a developing tool called the Weather Impact Traffic 
Index, which translates weather and weather forecast impact on air 
traffic, will help us in these efforts.
    As I mentioned, the NWS and the FAA are also in the process of 
conducting a new series of site evaluations. As of June, we had 
evaluated 13 of the 21 CWSUs and expect to complete the remaining site 
evaluations by September. So far, we have found what previous FAA, NWS 
and GAO reports have documented: a lack of standardization in CWSU 
services. Having said that, we have also found that CWSUs are well 
integrated into air traffic management operations. We have also found 
positive dividends from new FAA and NWS initiatives. Specifically, NWS 
has provided all CWSUs with a common tool set--standardized technology, 
collaboration and training--which is producing improved and consistent 
service. The FAA has funded a hardware and software technology upgrade 
of the AWIPS Remote Display (the standard meteorological workstation 
used by the NWS) which has improved system performance and weather 
information availability because it provides faster, more effective 
manipulation of forecast data.
    In conclusion, we are very hopeful about the benefits of the NWS 
proposal. However, I want to assure you that our assessment of the NWS 
proposal is not the final consideration prior to implementation. Let me 
be clear--we will not change the current configuration until a 
demonstration and validation show we are able to effectively 
disseminate the most timely and accurate weather forecasting for the 
safe operation of flights in our system.
    We will work with the NWS to plan, execute and evaluate the 
demonstration and validation to prove whether the consolidated CWSU 
model will be able to provide on-demand services remotely. In addition, 
we understand that the Board on Atmospheric Sciences and Climate of the 
National Academy of Sciences has agreed to oversee the demonstration 
and validation, providing an independent assessment of the consolidated 
CWSU model. We also expect the NTSB to contribute to the demonstration 
and validation by participating in the independent review. Finally, 
during the demonstration and review, we expect to develop the data 
necessary to assess, in quantitative terms, the improvements we have 
identified.
    We have an opportunity to couple the art and science of aviation 
weather to reduce the impact weather has on aviation and increase the 
safety of operations. FAA and NWS will continue to learn and grow 
together as we move towards our common goal of improved aviation 
weather services.
    Chairman Miller, Ranking Member Broun, Members of the Subcommittee, 
this concludes my prepared remarks. I would be happy to answer any 
questions at this time.

                       Biography for Richard Day
    Rick Day was named the Senior Vice President for Operations in 
September 2008. In this capacity, he is responsible for leading all 
segments of Operations--Terminal, En Route, Systems Operations and 
Technical Operations--and representing those service units on the 
Executive Council. Operations also directs the Office of Technical 
Training and Office of Service Center. In addition, Day will work to 
help Operations prepare for the transition to the Next Generation Air 
Transportation System.
    From 2005-2008, Day served as Vice President of En Route and 
Oceanic Services. He was responsible for providing air traffic services 
that met customer target levels of safety, efficiency and security in 
the national airspace system and international airspace assigned to 
U.S. control. He also concentrated on bolstering ties with civil 
aviation authorities to promote harmonization and cooperation as the 
world moves to the Next Generation Air Transportation System.
    Day joined the Federal Aviation Administration in 1974, beginning 
his career as an air traffic control specialist at Cleveland Air Route 
Traffic Control Center. He eventually moved to the Central Region and 
Great Lakes Region where he served as Manager of the Kansas City ARTCC. 
He held various branch and staff manager positions, before serving as 
Assistant Air Traffic Division Manager for three years. He later served 
as acting Regional Administrator.
    He also spent time as an instructor/evaluator at the Mike Monroney 
Aeronautical Center following the PATCO strike from 1980-1984.
    In 2001, Day became Manager of the Air Traffic Division of the 
Federal Aviation Administrations Southern Region in Atlanta, eventually 
serving as Area Director for Eastern En Route and Oceanic Operations in 
February 2004.
    In March 2005, Day was selected as Vice President for En Route and 
Oceanic Services. He leads nearly 9,000 employees supporting 47 million 
operations a year over more than 5.6 million square miles of airspace 
in the U.S. and 24.6 million square miles of oceanic airspace. This 
domain equates to more than 15 percent of the world's airspace.
    Day holds a Bachelor's degree in management from Mid-America 
Nazarene University. He chartered and was the first President of the 
Kansas City Metropolitan Chapter 293 of the Federal Managers 
Association.
    Day lives with his wife, Jill, in Springfield, Va.

                               Discussion

    Chairman Miller. Thank you, Mr. Day. We will now begin our 
first round of questions. I now recognize myself for five 
minutes.

            Involvement of Air Traffic Controllers in Reform

    Again, I understand based upon our staff interviews and 
other information that the air traffic controllers strongly 
support keeping meteorologists where they are in the regional 
air traffic control centers where they can stand over their 
shoulder in times of weather crisis.
    Mr. Day, since the air traffic controllers are the 
consumers, the customers for the weather services, what role 
have they played in developing this proposal for the 
consolidation of services?
    Mr. Day. The air traffic controllers have not had a central 
role in developing the requirements for those services, 
however, there has been assessments ongoing between the FAA and 
the National Weather Service going out and reviewing the 
services currently provided in Center Weather Service Units. 
And as I understand, they have gotten feedback from the Center 
Weather Service employees, as well as the controllers on those 
assessments.
    Chairman Miller. Would those be the CWSU's site reviews? I 
think we have now gotten a copy of.
    Mr. Day. Yes, sir, and there has been 13 completed out of 
the 21 sites.
    Chairman Miller. My understanding is that in every case the 
view of the air traffic controllers is they like things the way 
they were a whole lot better than the proposed change. Is that 
correct?
    Mr. Day. This is change, and having been a controller many 
years ago, I have gone through a number of technological 
changes, and oftentimes I would resist those changes because I 
felt comfortable with the tools and the assets and the advice 
around me. And our controllers are the same way, and we have 
done a number of technological changes, and what we often find 
is after we introduce the change safely and we work to resolve 
concerns, we oftentimes find that--in most cases we find that 
they--it is hard to pry the new technology from their hands.
    We also find that our new controllers, the `NextGen-ers' 
and `Gen X-ers' really do embrace technology, and they are 
actually pushing us to continue to look for new technologies 
and new ways to do business.
    So we do find that while--and we do understand resistance 
to the change, we do want to address their concerns and feel 
that as we work through a successful demonstration and 
validation process, which would include their involvement and 
feedback, we will resolve those concerns and come up with a 
much superior service than we have today.

          The Effects of Reducing the Number of Meteorologists

    Chairman Miller. I understand the consolidation proposal 
would require at least a 60 percent reduction in the staffing 
of meteorologists during the heaviest traffic hours. 
Understanding that there is continuing new technology and we 
certainly want to overcome resistance to using new technology 
where it does actually improve weather forecasting, will the 
reduction by 60 percent of the people, the forecasters, not 
have some significant effect on the quality of the forecasting? 
Will the skies really be as safe if there are eight forecasters 
on duty as opposed to 20?
    Dr. Hayes.
    Dr. Hayes. Well, I would say that our--any--on any given 
day we don't have significant weather affecting aviation 
covering the entire United States, and so in our existing 
structure we have people who are monitoring areas where there 
is no significant weather, and our consolidation plan is really 
to reduce the number of employees involved in this from 84 to 
50. We will have eight people, and our plan here is actually to 
put more eyes on where weather has an impact on aviation in our 
proposal.
    So it is our view that we will actually increase the 
attention that we are putting on weather that has an impact on 
aviation safety.
    Chairman Miller. Okay, and I suppose it is also true that 
on most days firefighters have the easiest job in America.

              Safety and Potential Degradation of Service

    Mr. Powner, do you have a comment on that?
    Mr. Powner. Well, clearly, these are all very fair 
questions, Mr. Chairman. I think the rubber is going to meet 
the road on the demonstration project. I mean, the key here is 
to demonstrate no degradation of service, and you know, and not 
having that face-to-face, on-demand consultation is a concern. 
We heard that during the course of our work also, and we really 
won't know that until we have that demonstration in place.
    And, again, I would like to reiterate that demonstration is 
going to be very difficult because as we heard here, we still 
have performance measures to agree to in terms of what we are 
measuring, and then once we get those in place, then we have to 
baseline those so that we have baseline performance to measure 
against.
    It is tough to demonstrate no degradation of service if you 
do not have baseline performance metrics.
    Chairman Miller. Okay. My time has expired.
    Dr. Broun for five minutes. Ranking Member and licensed 
pilot, Dr. Broun.
    Mr. Broun. Mr. Day, are you a pilot?
    Dr. Hayes, are you a pilot?
    Dr. Hayes. No, sir, I am not.
    Mr. Broun. Mr. Day, I have used Atlanta Center. I flew out 
of Athens, Georgia, for a long period of time and then I flew 
out of South Georgia a long period of time and worked out of 
Jack Center or flying into Atlanta Center a lot, and I 
appreciate your centers' good service that I have gotten.
    But I want to make a statement. As a pilot, instrument-
rated pilot, frequently I would be talking to a controller at a 
center and would talk to the controller about what weather I 
was facing, and this is--we would fly at night as well as in 
the daytime. And just to make a statement to begin with, I 
don't like this change as a pilot, that you are proposing, and 
I think it is not going to be a good change for pilots.
    I think it is--and the reason I say that is because 
frequently I have talked to the center controllers and asked 
about weather--and have talked to a National Weather Service 
specialist in the center about what I was dealing with. Trying 
to consolidate that and working with the controller that was 
handling my aircraft at the time, being pilot in command, 
talking to the controller, talking to the Weather Service 
specialist trying to figure out the safest way for me and my 
aircraft and frequently passengers to traverse through a 
weather system, I think it is absolutely critical for pilots to 
have that ability.
    So my change that I would suggest as a pilot to FAA is to--
let us go to a 24/7, 52 weeks out of the year service with 
somebody in each control center and not trying to consolidate 
these things. I think it is absolutely critical.
    Now, Mr. Day, have you all at FAA consulted AOPA about 
their opinion about this change that you all are proposing?
    Mr. Day. We have had conversations with AOPA\1\ just like 
we had with the flight service consolidation and the many 
pilots like yourself, oftentimes they do want that comfort of 
having face-to-face briefings or assets available, and what I 
would say, because I used to work down in that area, and I have 
been to all those facilities, including Athens Airport, the 
CWSU forecasting is not the only product.
---------------------------------------------------------------------------
    \1\ Aircraft Owners and Pilots Association
---------------------------------------------------------------------------
    You know, as a controller they have the corridor 
information or corridor information weather service services, 
as well as an integrated terminal weather services----
    Mr. Broun. Mr. Day, let me interrupt you because my time is 
very limited. I understand all that, and I understand that we 
are still going to have towers as well as approach and 
departure control help on that, but there is a lot of territory 
in Georgia, Florida, South Carolina, North Carolina, Tennessee, 
Alabama, Mississippi, Texas, Louisiana that I have been flying 
in that is not covered by a tower, it is not covered by a 
terminal radar. It is covered by the Center, and I have talked 
to those weather specialists, and I have--it is not about 
having the comfort.
    It is about having safety, and I think it is absolutely 
critical to have those specialists in the Centers to be able to 
talk to those folks and talk to a controller with the weather 
specialist looking over their shoulder so I can talk to both of 
them at the same time. And I think you all, just as the 
Chairman said in his opening statement, and I really 
appreciated his opening statement, I think you all are looking 
for solutions for a problem that is not broken.
    I would like to see you guys go to 24/7 personally. I think 
that is going to be the safest way. You know since you worked 
in the Atlanta control, Atlanta Center that we have a lot of 
thunderstorms. Daytime, nighttime. I need as a pilot to know 
where those are and how to circumnavigate them. And talking to 
somebody in Silver Springs, Maryland, with a controller being 
in Hampton is not going to get it as far as I am concerned.
    I like technology. I want to stay on the cutting edge of 
technology, but I think you all are--you have no metrics to 
measure what is going on today. You have no possibility of 
determining what is going on from the National Weather Service 
absolutely providing the services that the pilots desperately 
need in operating a safe aircraft in the Air Traffic Control 
System, and I think until we have the metrics in place, until 
we have all the things that are absolutely necessary to make 
sure that we continue in a safe manner and operate in the air 
traffic control system, I think you are premature in just 
jumping out and trying to do what you are doing.
    Now, my time is just about expired. Mr. Chairman, you have 
been very gracious in allowing some variance on time. Dr. 
Hayes, I have got a question for you very quickly, because my 
time is up, and the Chairman is being very gracious to offer me 
some extra time.
    Can NOAA provide weather specialists in the centers to 
give--to use all the technology that is available to help us as 
pilots to provide safe travel within the center structure? Can 
you all do that and do it in a cost-effective manner and 
utilize all the technology?
    Dr. Hayes. Mr. Broun, are you referring to Centers as 
currently configured today or in the proposed----
    Mr. Broun. No. I am talking about in Centers as they 
currently are configured today.
    Dr. Hayes. And the answer is an unqualified yes.
    Mr. Broun. Okay.
    Dr. Hayes. I think our view is that the system works well 
today, but it needs to work better. There are challenges we 
face, and as you look to the future of aviation in the United 
States, the demands for air traffic management are only going 
to grow, and weather, as you noted, being a significant impact 
on traffic, is going to grow in its importance.
    We need to bring to bear new science and technology. We 
need to improve the consistency of our forecasts. These are 
part of what causes some of the delays you experience. I want 
to assure you I am committed to enhancing the services that we 
provide to the FAA. I am--and I am also committed to doing it 
in a way that ensures safety.
    So I have responded to their requirement because I believe 
that what they are asking is viable, and I have a 
responsibility since I am the service provider to test what I 
consider to be scientifically-viable solutions, have an 
objective, independent, third-party evaluate, and if there is 
any concern about degradation, then there is no commitment on 
our part to move forward.
    Thank you.
    Mr. Broun. I appreciate the great services you all provide.
    My time is up. Thank you, Mr. Chairman.
    Chairman Miller. Thank you, Dr. Broun.
    Ms. Dahlkemper.
    Ms. Dahlkemper. Thank you, Mr. Chairman.
    I guess I want to piggyback on what we were just talking 
about, but as you were talking about the conclusions regarding 
the CWSU baseline performance, are they going to be evaluated 
by the National Academies? Dr. Hayes, Mr. Day, one of you.
    Dr. Hayes. Our plan with the involvement in the National 
Academies is that they will bring together the expertise and 
that will be involved in looking at the plan, looking at the 
metrics we have, overseeing the execution of the dem/val, 
evaluating the results, and again, part of their evaluation, if 
there is any concern with the baseline metrics that we have, 
whether they are strong enough, whether the execution is strong 
enough to indicate that there is no degradation, we expect them 
to tell us that.
    In addition, internally I have a responsibility to the 
American people that every step of the way I evaluate our 
internal processes, and if I see something that they don't see, 
I have a responsibility to say, hold everything. So I think 
there is a dual aspect to this evaluation, both external and 
internal.
    Ms. Dahlkemper. Will all the metrics that are proposed by 
the recent GAO strictly be adopted in that?
    Dr. Hayes. I think we have got four of them in work, in 
implementation today. We are looking at forecast accuracy. We 
are working with the FAA, and we hope to have that soon, and I 
would say that if there are additional metrics, again, our 
intent here is not to cut any corners with regard to safety of 
air flight and our services.
    Thank you.
    Ms. Dahlkemper. Mr. Powner, when FAA rejected the second 
NWS proposal for consolidation, they stated that they believe 
the technology has moved to a point where face-to-face 
communication between forecasters and air controllers is not 
needed. Given your experience looking at the technology 
acquisitions in use in federal agencies, are there risks in 
this approach that relies on technology to fill in for direct 
human contact?
    Mr. Powner. Well, clearly the on-demand consultation you 
can't put in--there are technologies to put in place, you know, 
with various communication mechanisms. We could have that--I 
will tell you, though, during the course of our review we 
actually visited four centers, and three of the four preferred 
to move forward with a face-to-face, on-demand consultation. So 
I still think that is the mode that most folks are comfortable 
with. I think the technology when you want to continue to 
pursue that, I think that what we are talking about here is 
consistent with where FAA is going with their longer-term 
NextGen initiatives where you do more remotely, not just 
weather but other things associated with air traffic control.
    So you want to continue to push that, but, again, you want 
to make sure--you need to listen to the users, and you want to 
make sure there is no degradation of service.
    Ms. Dahlkemper. And I guess I just want to go back to Dr. 
Hayes and Mr. Day and, again, kind of piggyback on what has 
already been asked.
    I guess what is it that we are trying to fix through this 
consolidation? Exactly what is it we are trying to fix, because 
there seems to be unanimity among meteorologists that this--
they are a necessary part of this safety team. So what is it 
that we are trying to fix?
    Mr. Day. Thank you. So first of all, through evaluations by 
both the GAO as well as our site visits and from customer 
feedback we lack the consistency and accuracy of our forecasts, 
and as--what we have seen is that many times our very competent 
and committed meteorologists provide a regional view, however, 
that becomes murky as you look at a National Airspace System 
and a common operational picture by which to make mission-
driven decisions and ensure safety and a successful mission.
    So we believe that by moving to this new model we can 
resolve some of those inconsistencies and accuracy like we 
realize with the CCFP product for convective weather.
    Ms. Dahlkemper. Dr. Hayes, did you want to comment on that?
    Dr. Hayes. I would say that I have seen evidence in the 
past 18 months since I have been in the job where we have some 
challenges with consistency. FAA identified an impact three 
weeks ago in the New York City area where our weather forecast 
office Terminal Aerodrome Forecast was inconsistent with the 
CCFP product, and so we are taking action now to address that.
    And that will be part--and that is part of our response, is 
to focus on a consistent message to air traffic controllers. I 
mentioned in my opening----
    Ms. Dahlkemper. And that can't be done in the current 
system that we have right now? The consistency issue can't be 
fixed?
    Dr. Hayes. No. It can. It can be with the existing system.
    Ms. Dahlkemper. It can be or it cannot?
    Dr. Hayes. It is. There are challenges there that we would 
have that we wouldn't have with fewer locations. Obviously the 
more people in the message generation, the more difficult it is 
to ensure consistency.
    Ms. Dahlkemper. Okay. My time has expired. I yield back.
    Chairman Miller. Thank you, Ms. Dahlkemper.
    My current plan is to represent Mr. Lipinski for five 
minutes of questions, and at that point we probably need to go 
to vote, so we will be gone for votes for a sufficiently long 
time. It does not make sense to come back, so Mr. Lipinski for 
five minutes.
    Mr. Broun. Mr. Chairman, I would ask for unanimous consent 
to enter into the record a statement from the air traffic 
controllers, from the Weather Union folks, as well as AOPA?
    Chairman Miller. That would be fine.
    Mr. Broun. Thank you, Mr. Chairman.
    Chairman Miller. It is so ordered.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Miller. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank 
Chairman Miller and Ranking Member Broun for, both of you for 
holding this important hearing and for allowing me to join in 
on the Subcommittee here this morning.
    As some of you may know, Midway Airport is in my District, 
and O'Hare is close, and air traffic safety is very important 
to me. I have been following this proposed consolidation with 
increasing concern.
    A little over a month ago we had Administrator Babbitt in 
before the Transportation and Infrastructure Committee's 
Aviation Subcommittee, and I was asking him questions that we 
have--are focusing on here this morning. Unfortunately, he had 
just gotten into that position and at that time he really 
didn't have much to tell me. He said he hadn't had a chance to 
review the latest version of the NWS proposal. So I am hoping 
that today with this very helpful GAO report we can get a 
clearer picture.
    I have a lot of questions here. Let me try to focus, and I 
will have some questions for the record, but focus in on two if 
we have time.
    Dr. Hayes, the meteorologists who currently work the 21 
CWSUs have developed very precise knowledge of how weather 
patterns have emerged in each area. During the test phase of 
the consolidated program how do you intend to staff this new 
consolidated center? If, for instance, you were taking some of 
the most senior people out of the existing 21 centers, how can 
you fairly and accurately evaluate the current system versus a 
new proposal? And what will become of the meteorologist at the 
existing CWSUs if consolidation occurs?
    Dr. Hayes. For staffing the dem/val, Mr. Lipinski, our plan 
is to not take the people out of the existing CWSUs. Our plan 
is to take aviation weather expertise out of our Science and 
Operations Officers at our Weather Forecast Offices. Some of 
our meteorologists in charge will staff the dem/val sites so 
that we do have, I think, a fair and objective comparison of 
`as is' versus `to be.'
    Mr. Lipinski. Do you see any problem with the difference in 
experience that you will have at the--comparing two different, 
the two different systems?
    Dr. Hayes. Actually, I think if it biases it at all, it 
would bias it toward the as is today because that is where the 
aviation experience is today. And so, no, I don't think that it 
is an unfair comparison.
    Mr. Lipinski. So what happens with the meteorologists at 
the existing CWSUs?
    Dr. Hayes. Well, we would offer them a job elsewhere if 
they were, if we were to reduce or to eliminate that CWSU and 
offer them a job ideally at one of the two that we are going 
to--that we have proposed, and if we also have vacancies at 
nearby Forecast Offices, and we would attempt to offer them 
opportunities.
    One other aspect of the proposal that we put forward that 
we think will enhance its attractiveness to members of our CWSU 
staff is to raise the GS grade of aviation weather forecasters, 
and I think what this will in a long-term create an aviation 
career opportunity that they don't have today.
    Mr. Lipinski. Okay. I just want to--I don't have much time 
here. I would quickly move onto the second question for Dr. 
Hayes, and on May 9, 2008, when the National Weather Service 
sent the FAA's latest consolidation proposal, you accompanied 
the proposal with a transmittal letter that included some 
language which concerned me. You wrote that, ``The non-remote 
option expands and improves CWSUs' services at the 21 current 
locations. This option sustains the capability to provide face-
to-face decision support, which reduces risk when rapidly 
changing weather has a potential for first order impact on 
aviation.''
    I think we can all agree that if the proposal increases the 
risk relative to the current system, that it is not going to be 
acceptable. There are two things I want to understand.
    First, what did you mean by ``first order impact'' on 
aviation, and second, how could a new system with less local 
weather knowledge possibly reduce risk? And haven't the air 
traffic controllers spoken out in favor of keeping the 
forecasters co-located?
    Dr. Hayes. Well, I think, Mr. Lipinski, when you are trying 
to communicate, one has to say that face-to-face does lessen 
risk, whether it is a significant reduction or--I don't think I 
can categorically say one way or the other. There is--it just 
depends on the situation.
    I guess my position is and has been that I think that what 
the FAA has asked me to do is viable, and I am willing to test 
it and then see what the results show with an independent 
evaluation.
    Mr. Lipinski. How much of an increase in risk are we going 
to allow?
    Dr. Hayes. Well, again, the risk is to communicating what 
we intend. Whether that risk translates into an impact on 
safety or not, I don't, again, I don't think I can say.
    Mr. Lipinski. Okay. I have some more questions for the 
record, but I know that we don't have much time here, and so I 
will yield back.
    Chairman Miller. Thank you, Mr. Lipinski, and the record 
will remain open for three days, three legislative days for 
records.
    We have provided to the minority a list of documents, and I 
now move or ask unanimous consent that they be entered into the 
record. Without objection, so ordered.
    [The information appears in Appendix 2: Additional Material 
for the Record.]
    Chairman Miller. Under the rules of the Committee the 
record will remain open for two weeks, excuse me, for 
additional statements from the Members and for questions for 
follow up and for answers to any follow-up questions that the 
Committee may submit.
    And it certainly appears based on today's testimony that by 
the time we have developed a reasonable, careful criteria for 
the dem/val for determining whether the new procedure is the 
equal of the old, NextGen will be here, and playing out the 
clock may not be such a bad thing.
    And with that the hearing is adjourned. The witnesses are 
excused.
    [Whereupon, at 11:57 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John L. ``Jack'' Hayes, Assistant Administrator for 
        Weather Services; Director, National Weather Service, National 
        Oceanic and Atmospheric Administration, U.S. Department of 
        Commerce

Questions submitted by Representative Daniel Lipinski

Q1.  Mr. Powner's GAO report stated that ``It is important to obtain an 
understanding of the current level of performance in these measures 
before beginning any efforts to restructure aviation weather 
services.'' If we cannot quantify how the current Central Weather 
Service Units (CWSUs) are working, I do not understand how we can 
rigorously compare them to the proposed consolidated centers. How can 
you design a reliable test when you cannot even characterize the 
control in your experiment? What steps are you taking to quantify 
current CWSU performance, and how well do those steps capture 
differences due to local weather patterns?

A1. In February 2008, the GAO recommended NWS ``. . . perform annual 
evaluations of aviation weather services provided at en route centers 
and provide feedback to the Center Weather Service Units.'' In response 
to this recommendation, the NWS developed and implemented the CWSU Site 
Review Program in January 2009. These documented site reviews assess 
the current level of performance at each of the Centers (including 
local aviation weather support) through observation, interaction, and 
dialogue. In addition, the review includes interviews with FAA 
representatives to assess CWSU performance and determine how well NWS 
meteorologists are addressing FAA weather concerns. By September 2, 
2009, a total of 18 site reviews will have been completed.
    We continue to gather data on CWSU performance using performance 
metrics identified in the GAO report. These metrics will provide a 
baseline for performance metrics for each CWSU and will be available 
prior to the demonstration/validation (dem/val) period for NWS' 
proposal.
    When the dem/val starts, we will have a standard baseline from 
which all CWSUs will be performing. We are working collaboratively with 
the FAA before the dem/val period to define and quantify additional 
metrics; this collaboration will continue during the dem/val. We will 
have independent verification and validation of all metrics, and we 
have engaged the National Academy of Sciences to conduct a final, 
objective assessment of the dem/val.
    CWSUs are tasked with providing a regional and national weather 
picture, and collaborate with NWS's 122 Weather Forecast Offices (WFOs) 
to gain additional local expertise. [The proposal continues these 
fundamental concepts of operations.] FAA's requirement is for a common 
national picture of weather affecting the National Airspace System 
(NAS), and the proposed CWSU structure will be better suited to provide 
this support. Airport-specific weather forecasts, which address the 
local weather patterns, will continue to be provided by the local WFOs. 
CWSUs will continuously communicate and collaborate with local WFOs to 
ensure data consistency as we support Air Route Traffic Control Centers 
(ARTCCs), Terminal Radar Approach Control (TRACONs), and Control 
Towers.

Q2.  The meteorologists who work in the 21 current Central Weather 
Service Units have developed detailed local knowledge of weather 
patterns. During the test phase of the consolidated program, I am 
wondering how you intend to staff the new consolidated center. If, for 
instance, you take the some of the most senior people out of the 21 
existing centers, how can you fairly and accurately evaluate the 
current system versus the new proposal? What will become of the 
meteorologists at the existing CWSUs if consolidation occurs?

A2. While the CWSUs have developed local knowledge of weather patterns, 
much local expertise also resides with forecasters at the 122 WFOs, who 
provide specific airport forecasts via the Terminal Aerodrome Forecasts 
(TAF). In the new aviation services model, we will continue to combine 
the expertise of the WFO and CWSU, and the flying public will receive 
the benefit of a total collaboration to show a more consistent weather 
picture, enhanced by the new technology, 24x7 service, and improved 
weather products.
    For the dem/val phase, we propose to use a mix of CWSU 
Meteorologists-in-Charge, WFO management staff (including 
Meteorologists-in-Charge, Warning Coordination Meteorologists, Science 
and Operations Officers), Regional Aviation Meteorologists (each of the 
six NWS Regions has one), and other regional management staff. Any 
person participating in the dem/val will have a solid background in 
aviation meteorology and the NWS aviation program. This dem/val 
staffing proposal would bring in experienced aviation meteorologists 
while leaving the current forecasting core undisturbed at all 21 CWSUs.
    Should this consolidation occur, no NWS employee will be without a 
job opportunity. Anyone who wishes to continue their employment with 
NWS will have the opportunity to do so, either by bidding on one of the 
new positions at the CWSUs or by moving to another NWS position. The 
NWS anticipates that the majority of the FTE reductions will come from 
CWSU retirement-eligible employees electing to retire.
                   Answers to Post-Hearing Questions
Responses by Richard Day, Senior Vice President for Operations, Air 
        Traffic Organization, Federal Aviation Administration

Questions submitted by Representative Daniel Lipinski

Q1.  Mr. Powner's GAO report stated that ``It is important to obtain an 
understanding of the current level of performance in these measures 
before beginning any efforts to restructure aviation weather 
services.'' If we cannot quantify how the current Central Weather 
Service Units (CWSUs) are working, I do not understand how we can 
rigorously compare them to the proposed consolidated centers. How can 
you design a reliable test when you cannot even characterize the 
control in your experiment? What steps are you taking to quantify 
current CWSU performance, and how well do those steps capture 
differences due to local weather patterns?

A1. In January 2009, the FAA provided the National Weather Service 
(NWS) with five performance standards for Center Weather Service Units. 
The performance standards are:

        (1)  participation in the development of the Collaborative 
        Convective Forecast Product (CCFP), 100 percent of the time 
        when convection is expected to occur within that specific ARTCC 
        domain;

        (2)  consistency of Meteorological Impact Statements (MIS) and 
        Center Weather Advisories (CWA) product formats, information 
        content, and procedures for issuance, across all CWSUs;

        (3)  support for twice-daily stand-up briefings to ARTCC 
        leadership 100 percent of the time;

        (4)  provision of on-site or backup services 16 hours per day, 
        seven days per week, 100 percent of the time; and

        (5)  accuracy of forecasts used in decisions for traffic 
        management initiatives.

    Both the NWS and FAA are currently base-lining the performance 
standards we established and will be prepared to use these to compare 
services during the proposed demonstration/validation to ensure no 
degradation of services from those which are currently provided by 
CWSUs, locally and on-site. The standard and corresponding metric for 
the accuracy of forecasts used in decisions for traffic management 
initiatives will take a little more time to refine, but we believe that 
building on a developing tool called the Weather Impact Traffic Index, 
which translates both weather and weather forecast impact on air-
traffic, will help us in our efforts.
    Additionally, if we move forward with a demonstration/validation 
phase, we expect to develop a standard for response time for on-demand 
services provided remotely as we do not do measure this today.

Q2.  The most recent NWS proposal is actually the latest in a long 
series of steps that began with two FAA goals: saving $2 million a year 
and ensuring uniform, high quality data from all Central Weather 
Service Units. While I am a strong advocate of saving taxpayers money, 
I worry that for a savings of only six cents per flight, we may be 
compromising public safety. As I understand it, the current proposal 
would only save about $1 million per year, savings that would be offset 
by transition costs of about $12 million. This means that it would take 
a decade to earn back the costs of transition. Are these figures 
correct? If so, can you explain the FAA's rationale for pursing these 
changes?

A2. The primary reason FAA is pursing changes in CWSU services is 
improved services, not a reduction in cost. These improvements include 
weather forecasting services available 24/7 as opposed to the current 
16/7 coverage; higher-resolution, consistent forecasts, both temporally 
and spatially, for high demand terminal areas; standardized weather 
forecast operations; and performance based services.
    The current NWS proposal indicates estimated savings of $2.6M per 
year. This equates to an approximate 20 percent savings compared to the 
current program. In addition, we expect transition costs to be offset 
by operational savings within five years.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
